<html>
<title> - THE MISSOURI RIVER AND ITS SPRING RISE: SCIENCE OR SCIENCE FICTION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  THE MISSOURI RIVER AND ITS SPRING RISE: SCIENCE OR SCIENCE FICTION
=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE & TECHNOLOGY

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                     WASHINGTON, DC, MARCH 15, 2006

                               __________

                           Serial No. 109-42

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-431                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
TODD AKIN, Missouri                  ENI FALEOMAVAEGA, American Samoa
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
MARILYN MUSGRAVE, Colorado           DANNY DAVIS, Illinois
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
STEVE KING, Iowa                     MADELEINE BORDALLO, Guam
THADDEUS McCOTTER, Michigan          RAUL GRIJALVA, Arizona
RIC KELLER, Florida                  MICHAEL MICHAUD, Maine
TED POE, Texas                       LINDA SANCHEZ, California
MICHAEL SODREL, Indiana              JOHN BARROW, Georgia
JEFF FORTENBERRY, Nebraska           MELISSA BEAN, Illinois
MICHAEL FITZPATRICK, Pennsylvania    GWEN MOORE, Wisconsin
LYNN WESTMORELAND, Georgia
LOUIE GOHMERT, Texas

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Deputy Chief of Staff/Policy Director

                  Michael Day, Minority Staff Director

     SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE AND TECHNOLOGY

SAM GRAVES, Missouri, Chairman       JOHN BARROW, Georgia
STEVE KING, Iowa                     TOM UDALL, New Mexico
ROSCOE BARTLETT, Maryland            MICHAEL MICHAUD, Maine
MICHAEL SODREL, Indiana              ED CASE, Hawaii
JEFF FORTENBERRY, Nebraska           RAUL GRIJALVA, Arizona
MARILYN MUSGRAVE, Colorado

                   Piper Largent, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Talent, Honorable Jim, Senator, (R-MO), U.S. Senate..............     3
Martin, Greg F., Brigadier General, Commander and Division 
  Engineer, Northwestern Division, U.S. Army Corps of Engineers..     5
King, Mr. Mitch, Regional Director, Mountain-Prairie Region, U.S. 
  Fish and Wildlife Service, Department of the Interior..........     8
Wells, Mr. Mike, Deputy Director and Chief of Water Resources, 
  Missouri Department of Natural Resources.......................    10
Kruse, Mr. Charlie, President, Missouri Farm Bureau..............    24
Muench, Ms. Lynn M., Vice President, The American Waterways 
  Operators......................................................    26
Taylor, Mr. Steve, Missouri Corn Growers, Coalition to Protect 
  the Missouri River.............................................    27
Waters, Mr. Tom, Waters Farm.....................................    29
Sieck, Mr. David, Iowa Corn Growers..............................    31

                                Appendix

Opening statements:
    Graves, Hon. Sam.............................................    41
    Barrow, Hon. John............................................    43
    Skelton, Hon. Ike............................................    45
Prepared statements:
    Martin, Greg F., Brigadier General, Commander and Division 
      Engineer, Northwestern Division, U.S. Army Corps of 
      Engineers..................................................    46
    King, Mr. Mitch, Regional Director, Mountain-Prairie Region, 
      U.S. Fish and Wildlife Service, Department of the Interior.    49
    Wells, Mr. Mike, Deputy Director and Chief of Water 
      Resources, Missouri Department of Natural Resources........    57
    Kruse, Mr. Charlie, President, Missouri Farm Bureau..........    60
    Muench, Ms. Lynn M., Vice President, The American Waterways 
      Operators..................................................    62
    Taylor, Mr. Steve, Missouri Corn Growers, Coalition to 
      Protect the Missouri River.................................    68
    Waters, Mr. Tom, Waters Farm.................................    73
    Sieck, Mr. David, Iowa Corn Growers..........................    75

                                 (iii)
      



   THE MISSOURI RIVER AND ITS SPRING RISE: SCIENCE OR SCIENCE FICTION

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                   House of Representatives
Subcommittee on Rural Enterprises, Agriculture and 
                                         Technology
                                Committee on Small Business
                                                     Washington, DC
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360 Rayburn House Office Building, Hon. Sam Graves 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Graves, King, Barrow.
    Chairman Graves. I'll go ahead and call this meeting to 
order. Good morning and welcome to this hearing of the 
Subcommittee on Agriculture, Rural Enterprises and Technology. 
We're here today, obviously, to have a hearing on the Missouri 
River and the science used by the U.S. Fish and Wildlife 
Service to mandate management of the Missouri River by the 
Corps of Engineers. And I want to thank everybody for their 
participation. Obviously, all statements made by the witnesses 
and the Members will be placed in the record, in their 
entirety.
    It's no secret that I am adamantly opposed to the spring 
rise. First, this policy is based on unproven science. 
According to the Fish and Wildlife Service, a spring rise might 
increase the spawning habits of the endangered pallid sturgeon, 
might is the key word. In accordance with this theory and the 
Endangered Species Act, the Corps of Engineers has mandated to 
implement an artificial, man-made spring rise. However, many, 
including the Missouri Department of Natural Resources, dispute 
that the spring rise will cause the pallid sturgeon to spawn. 
In fact, many say that the spring pulse could further harm the 
piping plover and the least tern, which are two birds which are 
also endangered on the river.
    Second, the spring rise, which according to the Army Corps 
of Engineers, will occur in May pending sufficient water levels 
in the upper basin reservoirs, will happen at a time when 
spring rise already occurs naturally. A combination of a 
naturally occurring rise and a man-made spring rise can create 
significant problems and flooding. In a State with a history of 
floods, as well as many acres and livelihoods in the flood 
plain, a flood could have a devastating impact on the economy 
and public safety.
    In 2003, the Missouri River flooded and its impact was 
devastating. Most people outside of Missouri have probably 
forgotten this, but for the citizens of Missouri, it is 
embedded in their memories. This flood cost 48 people their 
lives. It cost $15 billion in damages, and damaged some 72,000 
homes. Now our Government wants to play Russian Roulette with 
the same river through a man-made flood.
    To add insult to injury, we all were informed late last 
year by the USDA that a farmer's crop insurance will not cover 
any destruction caused by a spring rise. The USDA reasons that 
crop insurance only covers crops destroyed by a ``natural 
occurring event.'' The USDA goes on to explain that a 
federally-mandated spring rise will not be covered because it's 
man made, not naturally occurring. As I understand it, the 
Government is mandating a flood that could impact over 1 
million Missourians in the Missouri River flood plain, but the 
Government will not cover the flood costs associated with its 
own policies. I think that is absolutely ridiculous.
    As a farmer, I understand the risks associated with my 
business. It is my job to prepare and reduce as much risk as I 
possibly can. However, we have an instance where the Government 
is coming in and throwing us a pitch we have never seen before. 
This seems counter-productive. Farmers themselves are becoming 
an endangered species.
    There are other alternatives that will protect these 
threatened species without threatening the livelihoods of 
farmers and others who depend on the Missouri River.
    Again, I want to thank everybody for their participation 
for coming here today and I'll now turn to Ranking Member 
Barrow, for his opening statement.
    [Chairman Graves' opening statement may be found in the 
appendix.]
    Mr. Barrow. Thank you, Mr. Chairman. Good morning. My name 
is John Barrow and I represent Georgia's 12th District in the 
Congress. The purpose of this hearing is to discuss the impact 
and change in water levels of the Missouri River, and in a 
broader sense to help protect the property rights in small 
businesses, including small farmers. I commend Chairman Graves 
for using this hearing to find ways to properly manage our 
rivers without infringing on the rights of local landowners. I 
understand this is a major local issue for Missourians, but how 
it's resolved in this case will have nationwide consequences.
    Since I'm here with a bunch of Missouri folks, I think I 
should put in a word for a good friend of mine, Armed Services 
Committee Ranking Member Ike Skelton. Ike has been a strong 
supporter of agricultural interests along the Missouri River 
and he's always worked both sides of the aisle to ensure that 
the river's management is fair to Missouri agribusiness. He 
formerly served as a Member of the Small Business Committee and 
he's the former Chairman of the Subcommittee on Procurement, 
Tourism and Rural Development.
    Ike would have been here himself to give a statement, but 
he's committed to preside over an Armed Services Committee 
hearing regarding Iraq and Afghanistan, so he can't be here. 
Since he can't be here to submit a statement, Mr. Chairman, I 
ask unanimous consent to enter Ike's statement into the record.
    Thank you, Mr. Chairman.
    [Ranking Member Barrows' opening statement may be found in 
the appendix.]
    [Congressman Skelton's (MO-4) opening statement may be 
found in the appendix.]
    Chairman Graves. Absolutely. We're now going to move on to 
our first witness. Senator, you have a very busy schedule, but 
we appreciate you being here. Senator Talent used to be the 
Chairman of the overall Small Business Committee. His painting 
is on the wall back behind. It's got to be a good feeling to 
come to a room where your likeness is hanging on the wall.
    Senator Talent. I remember the day I was hung, Mr. 
Chairman.
    [Laughter.]
    Chairman Graves. Well, thanks for being here, Senator.

  STATEMENT OF THE HONORABLE JIM TALENT, SENATOR (R-MO), U.S. 
                             SENATE

    Senator Talent. Well, I appreciate it and thanks for--I 
didn't realize I was a couple of minutes late. It's extremely 
kind of you and the Ranking Member to wait for me and good of 
you to hold this hearing. It's an important hearing and you 
know, Mr. Chairman, I just think people who are not familiar 
with this issue are not going to believe what the Government is 
doing. It's incredible, as you know, and the Ranking Member 
mentioned Mr. Skelton. We have been fighting on a bipartisan 
basis for years in Missouri for sanity in river management. And 
really, that's what I think this amounts to.
    We fought the spring rise. We fought the Government's 
attempt to withhold water in the late summer. Sometimes I get 
in front of audiences of people who really don't have anything 
to do necessarily with agriculture or the river and I say to 
them now if you were managing the Missouri River and the 
reservoirs upstream and you had a choice of releasing water in 
the spring when it's rainy or in the late summer when there 
isn't as much rain, what would you do? I have never had anybody 
say as a matter of common sense that we ought to release water 
in the spring, much less twice in the spring and then withhold 
it in the late summer. I mean even people who don't understand 
hydrology and river management get this because it's a matter 
of common sense.
    Mr. Chairman, you know that the Missouri River is the 
longest river in the United States. The Corps of Engineers 
operates the Missouri River to serve a number of 
congressionally-authorized purposes including flood control, 
navigation, irrigation, hydro power, water supply, recreation 
and fish and wildlife. It's supposed to be a balance. That's 
how they're supposed to manage the river.
    It's complicated to manage, even when water is plentiful. 
It's very complex when flows are limited. I mean nobody is 
saying that this is easy.
    So the debate has spawned many Court cases and legislative 
battles for decades. I, and the whole delegation, and those my 
predecessors and everybody in the House has been fighting on 
behalf of Missouri farmers against the spring rise and that's 
the issue that brings us here today.
    The spring rise is extremely dangerous, Mr. Chairman. Water 
is released from the lowest reservoir at Gavins Point. It takes 
only about 10 days to go from there to the confluence within 
the Mississippi River because between the release point in St. 
Louis, there are no locks and dams that can slow the water's 
progress. In fact, twice in June of 2005, which was a terrible 
drought season, the Missouri River rose nine feet in a period 
of 18 hours because of rains.
    During spring months, the lower basin receives significant 
rainfall and the additional flows reduce drainage from highly 
productive crop land and therefore increase the probability of 
flooding.
    The flood plain, the area that would be affected by this 
decision includes 1.4 million acres of farm land, 30,400 homes 
and 5,345 buildings worth an estimated $17 billion. That's 
what's at risk with this decision.
    Additionally, Mr. Chairman, I question the science behind 
the spring rise. Even the USGS admits that little is known 
about the essential life history needs of the pallid sturgeon. 
And water flow is just one of the many factors that impact 
spawning. Other stimuli thought to be associated with the 
spawning event include temperature, photoperiod and 
physiological conditions.
    Clearly, the spring rise is unjustified and premature. We 
need more time to evaluate alternative measures which are 
already underway and more time is necessary for the USGS and 
other agencies to form a baseline of analysis to evaluate 
biological response to the various approaches.
    Why have they chosen an method of helping to promote 
spawning of the pallid sturgeon, the one method which is the 
most destructive to the economy and dangerous to the lives of 
farmers in Missouri? I've always opposed the spring rise. Under 
the 2006 operating plan, recently released by the Corps of 
Farmers are now facing not one, but two spring rises, a March 
rise and a May rise.
    For generations, local farmers, residents and businesses 
have depended on the river for their lives and livelihoods. The 
two spring rises proposed by Fish and Wildlife put that 
livelihood at risk. Missourians understand they have a special 
responsibility to be good stewards of the river and to use its 
resources in an environmentally-sensitive way. We all agree 
with that. Who can we trust with the land and the resources, if 
not the farmers who live off it?
    But I don't believe that the needs of Missouri farmers and 
the Missouri economy should place second fiddle to a fish.
    Furthermore, as you mentioned, Mr. Chairman, the Risk 
Management Agency recently announced that those land owners 
flooded under this proposed plan will not be eligible for crop 
insurance benefits because the flood would be a man-made 
disaster, rather than a naturally-occurring event. It's 
outrageous that producers wouldn't get the compensation that 
they need and deserve.
    I'm going to continue to work with you and the delegation 
on both sides of the aisle, as well as other groups to ensure 
that farmers who do fall victim to spring rise flooding are 
compensated.
    Mr. Chairman, I continue to oppose a management policy of 
the river which has shifted the primary purpose of the upstream 
dams and reservoirs away from a balance of the congressionally-
mandated interests towards almost exclusive representation of 
recreational and environmental goals at the expense of other 
interests such as flood control, navigation, water 
availability, public water supply and power generation.
    This dangerous alignment of priorities on the river will 
also have an immediate impact on the livelihood of farmers and 
land owners along the river, as well as the economy of the 
State of Missouri.
    I thank you for your interest, Mr. Chairman. This is an 
important hearing. We need to keep doing everything we can to 
reverse this and I'm pleased to be here. I know Senator Bond, 
as you know, feels exactly the same way. I don't know of a 
public official on either side of the aisle who has not felt 
the way we felt about this.
    So thank you for holding the hearing.
    Chairman Graves. Thank you, Senator. I appreciate you being 
here.
    We're now going to seat the second panel, if you want to go 
ahead and come forward.
    [Pause.]
    We have a full complement of witnesses on this panel and on 
the third panel, so I have to ask everyone to be mindful of the 
clock and try to keep your comments to five minutes. There's a 
light up there. When you have one minute left I think it turns 
yellow and then red. But I do appreciate everyone being here. 
Again, as the Senator pointed out and Ranking Member Barrow and 
myself, we think this is a very important issue and we're 
looking forward to hearing from everybody.
    We'll start out with General Gregg Martin, who is Commander 
and Division Engineer of the Northwestern Division with the 
U.S. Army Corps of Engineers.
    General, I appreciate you being here. Thank you very much. 
I look forward to your testimony.

STATEMENT OF BRIGADIER GENERAL GREGG F. MARTIN, U.S. ARMY CORPS 
                          OF ENGINEERS

    General Martin. Mr. Chairman and distinguished Members of 
the Subcommittee, I am honored to be testifying before your 
Subcommittee today. My name is General Gregg Martin, Commander 
of the Northwestern Division of the U.S. Army Corps of 
Engineers. The operation of the Missouri River Mainstem 
Reservoir System is under my command.
    The Corps operate the Missouri River Mainstem Reservoir 
System to serve the congressionally-authorized purposes of 
flood damage reduction, commercial navigation, hydropower, 
irrigation, recreation, water supply, water quality, and fish 
and wildlife. The Corps' goal is to best serve these authorized 
purposes while complying with all applicable laws, including 
the Endangered Species Act, and while fulfilling our 
responsibilities to federally recognized Native American Indian 
Tribes.
    The Corps has been consulting with the U.S. Fish and 
Wildlife Service under the ESA since the early 1990s on the 
operation of the Missouri River Mainstem Reservoir System, the 
Bank Stabilization and Navigation Project, and the Kansas River 
projects. In November 2000, U.S. Fish and Wildlife Service 
provided the Corps a biological opinion which concluded that 
the Corps' operation of these projects jeopardized the 
continued existence of the interior least tern, piping plover, 
and pallid sturgeon, three species protected under the ESA.
    In 2003, as a result of additional information, including 
the listing of critical habitat for the piping plover, the 
Corps and the Service re-initiated ESA consultation. In their 
2003 Amended BiOp, the Service concluded that the Corps' 
actions still jeopardized the continued existence of the three 
listed species. However, in the 2003 Amended BiOp, the Service 
provided a revised Reasonable and Prudent Alternative, to 
jeopardy. The RPA includes a requirement for a bimodal spring 
pulse form Gavins Point Dam for the benefit of the endangered 
pallid sturgeon.
    Intense efforts continue by the Corps, with assistance from 
the USFWS, the U.S. Geological Survey, States, and other 
natural resource experts, to restore physical habitat for the 
three listed species including the pallid sturgeon in the 
watershed of the Missouri River. The restoration work for the 
pallid sturgeon is intended to provide the habitat for young 
sturgeons to develop and survive. We also have a significant 
research program underway with the U.S. Geological Survey to 
determine the facts that may be limiting pallid sturgeon 
spawning and recruitment, as well as an aggressive pallid 
sturgeon propagation program. However, under the 2003 Amended 
BiOp, these efforts, although beneficial, do not substitute for 
changes in river management to provide the flow conditions that 
the Service has indicated promote sturgeon reproduction.
    The 2003 Amended BiOp requires the Corps to implement the 
bimodal spring pulse releases no later than the spring of 2006. 
However, the BiOp also allows for consideration of existing 
hydroclimatic conditions, such as drought, in the decision on 
whether and how to implement the bimodal spring pulse in any 
given year.
    The Missouri River basin is currently experiencing an 
extended drought, and system storage is at unusually low 
levels. The Corps has taken these low levels into account in 
developing the technical criteria for a bimodal spring pulse 
release plan included in the Missouri River Mainstem Reservoir 
System Master Water Control Manual, the Master Manual, along 
with public input regarding any potential risks associated with 
the spring pulse releases. Consistent with the Master Manual 
technical criteria, the plan for this year is presented in the 
Corps' 2005-2006 annual Operating Plan for the Missouri River 
Mainstem System.
    The technical criteria and AOP were developed through a 
collaborative process and were based on the requirements of the 
2003 Amended BiOp; analysis of hydrologic data; input from the 
Spring Pulse Plenary Group, which was compounded of more than 
50 Basin stakeholders, Tribal meetings and consultations; and 
public comments received on the draft AOP. This process was 
facilitated by the U.S. Institute for Environmental Conflict 
Resolution and included representatives from the Service, the 
Corps, Tribal representatives, basin states, and a wide range 
of stakeholders. These discussions were key in the 
identification of Master Manual technical criteria for the 
bimodal spring pulse and the 2006 AOP.
    The technical criteria greatly reduce the potential for 
negative impacts as compared to the plan identified in the 2003 
Amended BiOp. One key change was a reduction of the peak of the 
spring pulses from one to two weeks down to two days. This not 
only saves water in System storage, which is important during 
the drought, but also reduces the duration of the higher river 
stages.
    The Plenary Group discussions, and extensive discussions 
with the Service, also helped the Corps identify criteria for 
adjusting the magnitude of the May spring pulse in response to 
hydroclimatic conditions. During drought, these adjustments 
substantially reduce or eliminate the spring pulses. The 
Service informed us that the draft technical criteria for the 
bimodal spring pulse plan, when implemented in conjunction with 
the comprehensive adaptive management program to address future 
operational flexibility will meet the intended purposes 
outlined in the 2003 Amended BiOp for 2006 and beyond. These 
criteria were then incorporated into the Master Manual Revision 
of 1 March 2006.
    The Corps understands farmers' concerns over the potential 
for flooding of cropland during the bimodal spring pulse 
releases. The bimodal spring pulse plan includes criteria 
specifically designed to minimize the risk of downstream 
flooding and crop damage. First, the established downstream 
flow limits have not been changed in the revised Manual, and 
thus provide similar downstream flood control during the spring 
pulse releases as in previous years' operations. Second, the 
Corps has agreed, at the request of downstream farmers, to 
integrate the National Weather Service precipitation forecasts 
into its daily Missouri River operational forecasts during the 
pulse period, and will adjust releases accordingly. And third, 
the Corps will integrate estimated actual rainfall derived from 
weather radar information into its forecasts.
    These measures, along with the reduced duration and 
magnitude of the pulses, will reduce the potential for 
downstream flooding. It is also important to know that as 
provided in the Master Manual spring rise technical criteria, 
that because the system storage was below 36.5 million acre- 
feed on March 1st of this year, March pulse was not 
implemented. We'll check storage again on May 1st to determine 
if the May pulse will be implemented. System storage must be 
above 36.5 million acre-feed for the May pulse to be 
implemented this year. Also, due to the current extended 
drought, releases for navigation in 2006 will be 6,000 cubic 
feet per second lower than normal, thus resulting in lower peak 
flows if the May pulse is implemented.
    In conclusion, sir, the Corps remains committed to operate 
the Missouri River Mainstem System to serve the 
congressionally-authorized project purposes, fulfill our Tribal 
Trust and Treaty obligations, and comply with all applicable 
laws, including the Endangered Species Act. We're convinced 
this can be best accomplished in a sustained collaborative 
process that includes the entire spectrum of Basin interests. 
Working together as a team, Federal, Tribal, State, local 
agencies and stakeholders, we can identify solutions that 
benefit the Basin as a whole.
    Thank you for the opportunity to testify. I'll be happy to 
answer any questions.
    [General Martin's testimony may be found in the appendix.]
    Chairman Graves. Thank you, General.
    Next, we're going to hear from Mitch King, who is the 
Regional Director of the Mountain-Prairie Region with U.S. Fish 
and Wildlife Service, Department of the Interior. I thank you 
for being here and look forward to your testimony.

    STATEMENT OF MITCH KING, U.S. FISH AND WILDLIFE SERVICE

    Mr. King. Thank you, Mr. Chairman, and Members of the 
Committee. As the Chairman mentioned, my name is Mitch King. I 
am the Regional Director for the U.S. Fish and Wildlife 
Service's Mountain-Prairie Region in Denver, Colorado. I really 
appreciate this opportunity to provide testimony on behalf of 
the Department of the Interior. I've provided more extensive 
comments that are in front of you right now and in the interest 
of time, I'll focus my oral comments on the pallid sturgeon in 
the spring rise.
    First, let me emphasize that large rivers like the Missouri 
River and their associated fishery habitat, like the pallid 
sturgeon, have evolved over thousands of years, so it stands to 
reason that if you make major changes to a large river system, 
you will invariably result in changes to the fishery that have 
evolved with that river system. The construction of dams and 
the regulation of the Missouri River for flood control and 
navigation capture the spring runoff flows in the reservoir for 
release during the late summer and early fall when conditions 
are drier and river flow is naturally lower.
    While these management actions have provided tremendous 
economic and social benefit to the nation, these benefits have 
come at a cost. One of those costs is the pallid sturgeon 
fishery whose numbers are now so low that it has been listed 
under the Endangered Species Act as endangered. Recognizing 
this impact, the Corps and the Service, have worked with our 
State partners, and I think we've developed reasonable 
solutions that facilitate navigation, facilitate flood control 
and other important interests, while working to restore the 
pallid sturgeon fishery. The Corps is combining physical 
habitat restoration, hatchery management and measured 
hydrological improvements to address the impacts to the pallid 
sturgeon fishery.
    It's these hydrologic impacts, the spring rise, 
particularly, that seem to be getting most of the attention. 
Therefore, I'll focus the remainder of my testimony on that.
    Let me start by assuring you that there is a mountain of 
science supporting the importance of spring rise when it comes 
to restoring pallid sturgeon fishery. While scientists may 
express opinions on the magnitude or the timing, there are 
literally hundreds of articles in the published scientific 
literature related to large river ecology and recognize the 
importance of the native fisheries in restoring some semblance 
of the natural hydrograph.
    The National Research Council, a subcommittee of the 
National Academy of Sciences stated it best by saying the 
``degradation of the Missouri River ecosystem will continue 
unless some portion of the hydrologic and geomorphic processes 
that sustain the pre-regulation Missouri River are restored, 
including ... flow pulses that emulate the natural hydrograph. 
[Without them] the ecosystem faces the prospect of irreversible 
extinction of species.''
    Very definitive quotes, just like this come from very well-
respected river ecologists, and they're found throughout the 
published literature.
    Even with this volume of science supporting the position 
that we're taking, the Corps and the Service, along with our 
partners like the U.S. Geological Survey, are constantly 
seeking more knowledge about the pallid sturgeon. The USGS is 
working to better understand pallid sturgeon in the river. At 
the same time, the Fish and Wildlife Service is working to 
improve our hatchery management capabilities regarding pallid 
sturgeon, and undoubtedly, this new science will improve our 
knowledge base regarding the pallid sturgeon and help the Corps 
make even better management decisions in the future.
    Setting aside science for a moment, the Service is 
sensitive to the concerns of the users and stakeholders of the 
Missouri River Basin. The Service and the Corps have worked 
together over the past year with travel representatives, Basin 
States and a wide range of stakeholders. The spring rise in 
this year's annual operating plan, which incorporated input 
from State, Tribal and Federal agencies, as well as 
stakeholders, complies with the requirements of the Endangered 
Species Act, while being responsive to the hydroclimatic 
conditions in the Basin and the potential impacts to people.
    Through this collaborative process, the spring rise was 
reduced in duration from roughly two weeks to two days. In 
addition, the magnitude of the pulses were reduced to the point 
that if water storage levels had been sufficient to support 
this year's March pulse, the magnitude of that pulse would have 
been very near the same level of flow that the Corps has 
released at this same time in previous years and water levels 
that allowed them to provide full service navigation level.
     I'd like to call your attention briefly to the graph that 
I've provided you and make a few points there because I think 
it says anything about this better than I possibly could. On 
that graph, there are several different colored lines. The 
first line is the large blue one, is sort of the natural 
hydrograph. That's the system that the pallid sturgeon was 
developed under. The flatter blue line is what the Corps of 
Engineers refers to as their normal navigation line. The orange 
line on that graph is what the biological opinion called for 
when it called for spring pulses and flow changes and the 
yellow line is what actually resulted after this year-long 
discussions that I talked about earlier and has the two-day 
spring pulses that I talked about.
    This graph shows you three really important points. First, 
you can see the river's natural hydrograph where the pallid 
sturgeon evolved under. Second, you can see that the Service 
and the Corps have taken into account the potential impacts of 
our actions on the river community. That's the difference 
between the orange and the yellow line. And third, and I think 
most important in this discussion, you can see that the water 
level impacts from the spring pulse plan are similar, if not 
less than those that would have been in place under normal 
navigation conditions.
    Mr. Chairman, I think that when you review the facts, you 
will see that the Service and the Corps have gone the extra 
mile to formulate an alternative that takes a positive step 
towards recovery of the pallid sturgeon and is sensitive to 
concerns of those who depend upon and live along the Missouri 
River.
    Thank you for this opportunity to comment. This concludes 
my prepared remarks and I'll answer any questions.
    [Mr. King's testimony may be found in the appendix.]
    Chairman Graves. Thank you, Mr. King.
    Susan Haseltine is here to just answer questions. She's 
Associate Director for Biology, U.S. Geological Survey, and I 
appreciate you being here and we'll probably depend on you 
quite a little bit here in questions.
    The next testimony is going to come from Mike Wells, who is 
the Deputy Director and Chief of Water Resources with the 
Missouri Department of Natural Resources.
    Thanks for being here.

    STATEMENT OF MIKE WELLS, MISSOURI DEPARTMENT OF NATURAL 
                           RESOURCES

    Mr. Wells. Good morning, Mr. Chairman. My name is Mike 
Wells, and I am the Deputy Director for the Missouri Department 
of Natural Resources and Chief of Water Resources for the State 
of Missouri. As Chief of Water Resources, I represent the state 
in all interstate water issues. I want to thank Chairman Graves 
for inviting me to give testimony on this very important issue.
    Let me begin by saying that the State of Missouri is truly 
concerned about protecting endangered species and natural 
habitat along our rivers. In fact, we have been a strong 
advocate of the research efforts being conducted to determine 
more about the life requirements of the pallid sturgeon. 
However, we are extremely disappointed to see the Federal 
Government move forward with a man-made spring rise on the 
Missouri River that intentionally increases the risk of 
flooding.
    The Federal Government has characterized the spring rise as 
an experiment to learn more about the pallid sturgeon. It is 
disheartening to know that the welfare of our citizens is being 
threatened by an experiment. Especially, when Federal 
scientists have publicly acknowledged that very little is known 
about the ecological needs of the pallid sturgeon and the basic 
research questions that they hope will be answered by the 
spring rise experiment have yet to be studied under existing 
conditions. It is apparent from the limited research that has 
been conducted to date that there is a lack of scientific 
evidence to justify a man-made spring rise.
    In the U.S. Fish and Wildlife Service's 2003 Amended 
Biological Opinion, the Service indicated that a ``spring 
rise'' was needed as a spawning cue to ensure the continued 
survival of the pallid sturgeon. Yet, in all but less than 100 
miles of the river immediately below Gavins Point Dam, the 
Missouri River already experiences a natural spring rise or 
many spring rises, actually. Just as an example, and Senator 
Talent has already alluded to this, but in 2005, there were 
five natural rises on the Missouri River between the months of 
March and June, the period we're talking about on the lower 
Missouri River near Boonville. These rises exceeded the man-
made rises mandated in the Service's Biological Opinion. More 
than 800 miles of free-flowing river below Gavins Point Dam 
should provide researchers with ample opportunities to conduct 
experiments on flow changes without putting downstream farmers 
and riverside communities at an increased risk of being 
flooded.
    As was mentioned earlier, the Missouri River's flood plain 
encompasses approximately 1 million acres in Missouri, much of 
which is prime farmland. With spring time being the time of 
year when Missouri flood plain farmers are already at greater 
risk of being flooded, artificially adding even more water to 
the river in the spring only intensifies the flood risk.
    Regardless of the precautions that the U.S. Corps of 
Engineers takes to minimize the risk of downstream flooding 
that would result from a manmade rise, they cannot ensure that 
the added water will not cause flooding. Water released from 
Gavins Point Dam takes five days to reach Kansas City, and 
approximately 10 days to travel to the Missouri River's 
confluence with the Mississippi River at St. Louis. Once water 
is released from Gavins Point Dam, it cannot be retrieved. 
Given that local rainfall events can cause the Missouri River 
to rise by more than 10 feet in less than 24 hours, a planned 
spring rise experiment that would increase river levels from 1 
to 3 feet would increase interior drainage and flooding 
problems for farmers and riverside communities.
    Last spring, we had a perfect example of how quickly water 
levels can change on the lower Missouri River. During the week 
preceding May 12, 2005, the level of the Missouri River at St. 
Joseph, Missouri was considered low, with stage readings of 
around 8 feet. With these low river levels, it would have 
appeared that conditions were right for the Corps to implement 
a man-made spring rise without causing flooding. However, from 
noon on May 12th until mid-day on May 13th, the Missouri River 
at St. Joseph rose over 10 feet to a stage reading of 18 feet. 
This is one foot above flood stage. Local drainage districts 
begin to have problems with interior drainage around St. Joseph 
at 12 feet. With water released from Gavins Point Dam taking 
about 4 days to reach St. Joseph, it is easy to see that if the 
Corps had implemented the man-made spring rise in mid-May of 
last year, the additional water would have increased the level 
of flooding and compounded interior drainage problems in 
Missouri.
    The Federal Government should not be conducting experiments 
that threaten people's livelihoods, especially when more 
reasonable courses of action are available. The range of the 
pallid sturgeon includes over 1,600 miles on the lower Missouri 
and Mississippi River, as well as a significant reach of the 
Yellowstone River in Montana, all of which have natural spring 
rises. By focusing research and recovery effort on these 
reaches, the Service and the Corps could take advantage of 
reaches of rivers that have more natural hydrographs. This 
would avoid contentious issues related to flow while providing 
ample opportunities to study the pallid sturgeon. The 
prescriptive and inflexible manner in which the Endangered 
Species Act is being applied in the management of the Missouri 
River is threatening many of the cooperative efforts being 
pursued with private landowners to recover the pallid sturgeon. 
Federal agencies should be working to find common sense ways to 
protect the species without harming citizens who live and farm 
along the Missouri River.
    I want to thank you for this opportunity to testify today, 
Chairman Graves. And I'd be glad to answer any questions.
    [Mr. Wells' testimony may be found in the appendix.]
    Chairman Graves. Thank you, Mr. Wells. Mr. King is gone so 
I guess I get to dominate all the questions. I was born in 
1963. When were the reservoirs put into place? When did we 
start putting all the reservoirs in South Dakota and beyond and 
what was the original purpose of installing those reservoirs 
and managing the river?
    General Martin. Right, Mr. Chairman, I've got my technical 
expert, Mr. Larry Cieslik, who is the Deputy Director of 
Programs. He's been with the Corps for decades and he could 
probably answer that question, if that's okay.
    Chairman Graves. Give us your name for the record and your 
position.
    Mr. Cieslik. My name is Lawrence Cieslik. I'm the Deputy 
Director of Programs for the Northwestern Division of the Corps 
of Engineers. I handle Missouri River issues. I'm also the 
Chief of Water Management for the Corps.
    And to answer your question, Fort Peck was built back in 
the Depression Era as a Work Progress Administration project 
and it was in place prior to the Flood Control Act of 1944 or 
the Pick-Sloan Act. The Pick-Sloan Act authorized the 
construction of the other five dams in the system and also 
authorized them as a system of reservoirs to be operated as 
such. And they were authorized for numerous purposes, including 
flood control, navigation, irrigation, hydropower, water 
supply, water quality, recreation, fish and wildlife.
    Chairman Graves. So basically we've got all those 
reservoirs and irrigation throughout the system above Gavins 
Point. Recreation has obviously become a more important or has 
taken on a more important role, just simply because of the 
development and flood control. Basically, flood control to hold 
that water when you've got all of the winter melt coming down, 
you hang on to that water and then you start, essentially 
releasing it in the summer time when traditionally our rainfall 
is low, down in the lower States.
    Mr. Cieslik. That's correct, sir.
    Chairman Graves. And now we have a system or at least a 
system is being proposed and all in conjunction with the pallid 
sturgeon to try to increase the spawning.
    And what I want to talk about a little bit is the science 
behind that. Mr. King, you've mentioned that there's sound 
science. I've read lots of reports too and I'm sure that you've 
got many biologists saying that this is going to work. I've 
read a lot of reports from biologists and people within the 
Federal Government that say it isn't going to work. I've read 
that the pallid sturgeons' spawning habits have more to do with 
the temperature of the water, rather than what's being 
proposed.
    And I want to know exactly how--just tell me how this is 
going to help? Is it those increased water levels? What makes a 
pallid sturgeon spawn? What does it take? I'm curious about 
this.
    I want to know how it's going to help and another question 
I'm going to ask you too, and you can kind of implement it in 
there, is the pallid sturgeon endangered worldwide or is this 
just in the Missouri River? I'm curious about that also.
    Mr. King. I think I'll take the last one first, because 
that's sort of the easiest one. The pallid sturgeon is located 
in some 1600 miles, something like that, from the Mississippi 
River all the way up to the upper end of the Missouri River, so 
it is not world-wide. It is strictly in the Mississippi and 
Missouri River system. It is listed as an endangered species.
    Chairman Graves. That's the only place it lives is in that 
section of the river, the Missouri River?
    Mr. King. It lives in that 1600-mile stretch from the lower 
ends of the Mississippi all the way through the upper ends of 
the Missouri and very sporadically in those areas because of 
the lakes and reservoirs.
    But as far as the spring rise and the science behind the 
spring rise, scientists, because they're scientists, always 
question their, are continually questioning their input, so it 
doesn't surprise me that some people might say that there needs 
to be more information gathered, but we had a fairly extensive 
review that included State Fish and Wildlife Agency scientists, 
that included river scientists, river ecologists and the quotes 
are just from various scientific published literature is pretty 
clear that natural river systems and those natural hydrographs 
are extremely important for maintaining the fish and I read you 
the quote from the National Academy of Sciences and it's fairly 
reputable that--I don't have any concerns at all that the 
science is there. Now what causes the pallid to spawn, there's 
a whole plethora of things that may be involved in pallid 
sturgeon spawning and you mentioned some of them in your 
comments, photoperiod, water temperatures, but I think 
everybody recognizes that some semblance of a natural 
hydrograph that includes those peak spawning, peak flows is 
important for spawning.
    And I'll ask--if Sue wants to chime in with anything else.
    Ms. Haseltine. I guess I would concur with what Mitch says, 
but I would also say that we're not just looking at spawning, 
but we'd like to see recruitment and there's a whole series of 
events that are associated with the natural hydrograph and 
temperature and photoperiod that create circumstances where 
larvae and young fish can survive to recruit into the year 
class.
    And we think that these kinds of species mimicking the 
natural hydrograph as much as possible will give us the best 
opportunity for that recruitment, not just spawning, but 
recruitment. It's associated with habitat and nutrient flow in 
the river and maybe turbidity. So there's a whole series of 
factors. The consensus of the science community is that the 
more you can mimic the natural hydrograph, the better chance 
you have of bringing those factors together for a good year 
class. And that's what we're looking for on that in the 
Missouri system.
    Chairman Graves. I've got a 2005 U.S. Geological Survey 
report that said that 75 percent of the sturgeon tracked last 
year spawned. And so I have to ask, that seems like a pretty 
good track record to me. And again, I have to question, does a 
man-made spring rise, is it going to increase it from 75 
percent to even more? Do we know for sure that this is going to 
have an impact? Do we know for sure or is this an experiment? 
And that's really the ultimate question I'm getting to. Is this 
an experiment because ultimately, I don't believe we do know 
for sure.
    But 75 percent seems pretty good, pretty good to me.
    Mr. King. Mr. Chairman, I'm not familiar with that study, 
but I'll look into that and learn a little bit more about it. 
But as Ms. Haseltine said, the issue is spawning and 
recruitment, and this is a migratory fish and it moves 
upstream. It spawns its eggs, then floats downstream with the 
flow and there's got to be enough of a location for that fish 
to--for the eggs to mature to the point before they reach slack 
water and that's how shortnose sturgeon do it. I'm not quite 
sure that--I'll let Ms. Haseltine talk about the USGS study.
    Is it an experiment? I don't think it is. I think we know 
enough about this species, and as I've mentioned before, 
there's good, solid science that says restoring these natural 
stream flows is important. The key here is are we being 
responsive to the downstream water users? I think we have. 
We've said let's reduce these amounts that we think is 
necessary to restore the natural hydrograph to the very minimum 
that we think will cause the reaction by the fish that we think 
we need to have and reduce those levels to the point where we 
are minimizing the impact downstream.
    And then let's again, as I talked about before, all 
scientists want to learn a little bit more about it. Let's 
study, let's monitor. Let's not only study the fish, but let's 
check downstream. Let's study the impacts downstream. I think 
we've done just about everything that you can possibly do to 
try to make sure that when we have these short, two-day 
duration pulses that are slightly above what is normally 
released under navigation levels, when we have those, that we 
know that downstream weather systems, they're using that, the 
Corps is using that in their calculations. They came up today 
and said or as they mentioned, in March, they decided not to do 
this because the storage was not sufficient. All of the 
criteria for managing flows to reduce flood flow stayed in 
place in this effort. It's just that short, two-day spring 
pulse. And I think we feel very comfortable that we're on good 
solid ground.
    Chairman Graves. Ms. Haseltine, do you want to comment on 
that?
    Ms. Haseltine. Actually, I'm not familiar with the specific 
study that you--we're doing sturgeon studies all up and down 
the river, so I'm not sure which specific one that you're 
referring to, but I guess I would go back to my point that yes, 
we may be tracking sturgeon that spawned, but our intent here 
is to get really effective spawning and then recruitment over 
the summer into the next year class. And so my question would 
be the natural hydrograph in relation to not just spawning but 
the whole recruitment process. So I believe that the consensus 
is that this natural hydrograph gives many clues to both 
shortnose, which we've done more work with because there are 
not that many pallids in the basin to work with, but also to 
pallids that will be beneficial.
    Chairman Graves. Do we have hatcheries? Are we raising 
pallid sturgeon?
    Mr. King. Yes. We've got our hatchery in Bozeman, Montana. 
That's where we're doing most of our sort of technical research 
associated with it. We have several other hatcheries along the 
Missouri River that we have pallid sturgeon recovery 
activities.
    As I mentioned in my comments, there's sort of the three-
pronged approach to try to deal with this. One is--and one of 
those is hatchery management activities. And we're doing 
everything we can possibly do to try to make sure that is 
another safeguard that's out there to help us restore these 
pallid sturgeon and keep them mature and in the wild at a 
reproductive age.
    Chairman Graves. How does that work? Pallid sturgeon have 
to swim up river. They spawn, lay their eggs and they've got to 
float all the way downriver until they get mature. How do you 
do that in a hatchery?
    Mr. King. We keep them in flowing water and hatch the eggs 
out and bring them up to a release size of five or six inches 
and then release them. They're at the point now where they're 
feeding on their own.
    Chairman Graves. Another technical question again is it 
still about the depth of the river, because the river is 
flowing. I've never seen the Missouri stop and I almost get the 
impression that if we don't release this water, there's not 
going to be flow for these eggs to float downstream. But there 
is flow. There's flow right now. You're not going to release 
water because there's not water upstream. I live six miles from 
the Missouri and I go over there and it's still flowing.
    Mr. King. It's flowing all the time, sure.
    Chairman Graves. So why do we need that increased depth? I 
still don't understand. I'm not a biologist. So you're going to 
have to explain it to me in real basic terms.
    Mr. King. It's velocity. It's temperature. It's the change 
in flows. That's what causes the fish to say it's time to spawn 
because over centuries, they've had these increased flows that 
have said it's springtime, it's time to spawn and the eggs 
float downstream. It's not just maintaining a flow, it's 
maintaining the changes in flow, that natural hydrograph we 
talked about.
    Sue, do you want to talk a bit about that?
    Ms. Haseltine. I would say that, you know, flow is a term 
that we use for integrating a lot of things, velocity, volume, 
temperature are all involved in the cues that the fish get. And 
the flow also has a lot to do with shaping the physical 
characteristics of the habitat that they're going to spawn in 
and so flow, photoperiod and temperature, along with turbidity 
in the water are vital clues, not just to spawning, but to 
migration and to habitat creation for these types of fish.
    And we have more experience with the shovelnose in that 
regard, and actually I just did find the reference to this 
study that you referenced which was on shovelnose sturgeon, not 
pallids, but this--flow is kind of a term that we use to--and 
the natural hydrograph is a term that we use to indicate the 
integration of all the conditions in the main channel of the 
river which we feel are needed for appropriate spawning and 
recruitment.
    Chairman Graves. Is Mother Nature following your time 
table?
    Aren't you attempting to do just exactly what is opposite 
or counter to what nature does? There are going to be years 
when we have droughts. We're going to have extended periods of 
droughts. There's going to be years when we have flooding which 
that has me more concerned than anything else because you don't 
know what the rain levels are going to be. It may not be this 
year. It may not be next year, but one of these years we're 
going to have a lot of rain and you're going to release that 
water and it may only be two days, but it only takes a day's 
worth of rain to change things. But in those years when we have 
limited flows, what are you doing about the pallid sturgeon 
then? What are you doing about the pallid sturgeon when we're 
flooding?
    You're trying to regulate it, put it on a time table so 
it's exactly the same every single year and I've never known 
nature to be exactly the same.
    Mr. King. Mr. Chairman, that's not--we're trying to do 
exactly the opposite of that. We're trying to mimic the natural 
hydrograph, and that natural hydrograph on that chart that I 
showed you bounces. Every year it bounces a little bit 
different. The way the Biological Opinion is written, and the 
General may be able to correct me on this or Larry, for sure, 
the way the Biological Opinion is written, is my understanding 
is that in years when you have more flows coming down, you 
adjust the release rates.
    In years where you have less flows coming down, you adjust 
the release rates. You're trying to mimic that a little bit, 
but for this one year here, we basically went to the bottom 
line and said what is the minimal flow that we think we need 
from the standpoint of fish to generate the responses we expect 
to see from the fish that minimize the impact downstream.
    Now on top of that, you lay in all of those restrictions 
that the Corps can speak to better than I of flow limits and 
when they release, just the same restrictions they use right 
now for navigation flows that they release down the river, to 
say we better not release, we better slow up because we've got 
an interior storm coming through. And if I understand this 
correctly, they've even expanded that even further now, and 
they've added to their knowledge base there.
    They're doing everything they can possibly do to try to 
make sure their releases do not adversely impact people 
downstream. And the Fish and Wildlife Service fully supports 
that. We don't have a problem in the world with saying no--we 
can't give you the release right now because conditions are not 
right.
    In fact, that's exactly what happened in March, and no one 
in Fish and Wildlife Service took issue with the Corps' 
decision there. And if the Corps were to come along in May and 
say, we got a major flood coming in off of the Platte River or 
some other side channel, and we better not do this or storm 
predictions are there, you won't hear the Fish and Wildlife 
Service say anything about that either. We recognize the 
importance of those flood restriction and flood limit criteria 
that the Corps uses.
    Chairman Graves. It's not withholding water, because there 
isn't enough that bothers me, it's letting water go when we 
have too much that bothers me. But again, I come back to the 
same question, haven't you changed the river? We've been 
managing it. We're supposed to be managing it for navigation, 
but aren't you doing--again, it comes back to my question, 
aren't you doing exactly opposite of what you intend to do? 
You're trying to create a natural flow, but do it exactly the 
same for the most part every single year, just as the graph, 
you're trying to do it by averages, but Mother Nature doesn't 
work that way. Some years again, you're going to have flooding. 
Some years you're going to have drought. You can have extended 
periods of drought.
    I just have a hard time seeing that this management is 
going to exactly mimicking the natural flow of the river. And 
we don't know what the rainfall is going to be.
    I wish I had as much confidence in your predictions of the 
rainfall. As a farmer, I don't have any confidence in what the 
predictions are. They never seem to work out. They never seem 
to work out.
    Mr. King. Mr. Chairman, I'll ask Ms. Haseltine to speak a 
little bit more to this, but as I've said several times, our 
Biological Opinion is written such that it will allow changes 
to--in that. The graph you're looking at is strictly a 
projection of averages. If there is more flow coming down the 
river, then there will be a change in the amount of water that 
we would suggest that comes down on behalf of the sturgeon. If 
there's less flows, there certainly will be less of a flow.
    So we're not, and I want to make this perfectly clear, 
we're not suggesting the same thing every year. We're wanting 
to mimic that natural hydrograph, and I'll see if Sue wants to 
add anything.
    Ms. Haseltine. I think that you make a good point that 
these fish evolved in a system that was highly variable. They 
are long-life fish and we don't expect that the conditions 
which will create a strong recruitment class will occur every 
year. We're going to have periods of droughts. We're going to 
have periods of floods, but as you look over a series of years, 
there is normally an early pulse which reflects snow melt off 
the Basin and then a stronger pulse which reflects water coming 
down from the Rocky Mountain system and entering the system. 
That's a characteristic. And the amount of each pulse each year 
naturally is highly variable and this species is evolved to 
that.
    They don't need a good recruitment class every year to make 
it. They're very long-lived. But every once in a while, the 
conditions will be ripe so that they will get a strong 
recruitment class. And so I think their biology is very 
amenable to managing their needs to other needs in the system.
    Chairman Graves. Mr. King?
    Mr. King of Iowa. Thank you, Mr. Chairman. I appreciate 
Chairman Graves pulling this hearing together. I appreciate the 
support we have from the Missourians in this task. I'm the lone 
voice for Iowa that represents any part of the Missouri river 
on this issue as Mr. Graves is and many of the Missouri 
delegation as well.
    First, I'd like to direct my first question to General 
Martin and not like a lawyer, I'm going to ask you a question 
that I'm not certain of the answer, but it occurs to me, having 
lived there on or near that Missouri bottom most of my life, 
pretty close from the beginning of Pick-Sloan, that there was a 
prioritized list of reasons to implement the Pick-Sloan 
Program, and as I recall it was flood control from the floods 
in the early 1950s, 1952, I think is the year; and, flood 
control, hydroelectric generation, navigation and then 
irrigation. And after that, I don't remember any priorities. 
Would that be the original priorities in the priority order or 
was there a different order and have there been other 
priorities added since that time?
    General Martin. Sir, I think you have it pretty close. And 
there were additional priorities that were added in later, 
recreation, fish and wildlife and some others.
    Sir, if it's okay, I'm going to turn that one over to Mr. 
Cieslik who has been there for decades.
    Mr. King of Iowa. Thank you.
    Mr. Cieslik. Yes, and originally the Pick-Sloan mentioned 
what have been called the Big Four, if you will, irrigation, 
hydropower, navigation and flood control.
    Mr. King of Iowa. In that order?
    Mr. Cieslik. Not in any order, but the 8th Circuit Court of 
Appeals, as you've heard, I'm sure, has also said that flood 
control and navigation are what they call dominant project 
purposes, undefined as to what exactly ``dominant'' means, but 
when they read the 1944 Flood Control Act, they have stated 
that they believe flood control and navigation are dominant 
project purposes.
    Mr. King of Iowa. Thank you. And while we talk about 
navigation, I pose this question and that is that when the 
Corps controls the flow or the outlet at Gavins Point that ends 
up in a lower discharge than is planned in the Master Manual, 
did we have incidents on the Mississippi River, below St. 
Louis, where we had some barge traffic that had to pull over 
and be tied off because of low flows in the Mississippi? Did 
that affect Mississippi navigation as well as Missouri 
navigation, General Martin?
    General Martin. Sir, I believe there were and there were 
instances.
    Mr. King of Iowa. Thank you. I wanted to--and I would point 
out too that when I read a list of priorities, whether they're 
in a particular order or not, I think about the Declaration of 
Independence where it says life, liberty, pursuit of happiness. 
I can't imagine pursuit of happiness taking precedence over 
life. So I think they are, at least implicitly in a priority 
order.
    And then to Mr. King, and I may plow this field over again 
because I've missed some of the questions that were directed by 
Mr. Graves. I regret that I had to leave the room a couple of 
times, but on the pallid sturgeon, and I look at this surge 
that we have here and I know that we've reproduced them well in 
a controlled environment and if I have this right, we go up 
about three forks and on an annual basis with gill nets until 
we're successful with finding a couple of females that are 
ready to spawn, until we get about six males so we have some 
genetic diversity. And that package of about--well, exactly two 
females and six males is then brought back to the hatchery and 
from that there would be perhaps over a quarter of a million 
eggs, and of those quarter of a million fertilized eggs, the 
efficiency in captivity is far greater than the wilds, 
naturally. And as they advised me, about 95 percent of those 
eggs actually are fertilized and get to the point where they 
could be released back into the river.
    I understood there were fish that were a little larger than 
the 6 or 7 inches. In fact, I thought they had told me they 
were raising some to 14 to 15 inches before they were released 
into the river. But that would indicate that a number approach 
250,000 fish would be ready to be released into the river and 
perhaps on an annual basis. Is that what we're doing? A quarter 
of a million released, pallid sturgeon every year or what is 
that number and for how many years has that gone on?
    Mr. King. Mr. King, I'll have to get back to you on the 
specific numbers. It sounds like you've got some pretty good 
numbers in front of you and I don't have anything to suggest 
that there's any difference in those numbers that you've laid 
out.
    I'll get back to you on exactly what we are releasing each 
year. I'd be glad to do that. As far as the size of the fish, 
you're probably more correct than I on the release size. What I 
was talking about is the size when they--that I saw them in the 
hatchery where they're basically feeding on their own and 
they're not just drifting in the system.
    Let me get back to one point that you were talking about 
earlier about purposes. The work that's being done on the 
pallid sturgeon is not being done under the umbrella of fish 
and wildlife resource work. The pallid sturgeon work is as much 
a part of the navigation and the flood control activities 
because the Endangered Species Act and the adverse impacts to 
the species are the result of those. So to try to separate out 
and say this is a fish and wildlife activity versus one of the 
principal responsibilities or principal purposes is a bit of 
off.
    Mr. King of Iowa. I thank you for that because I think 
you're going to help me get to this point that I want to set 
this up for. But first I have a couple of other questions to 
ask and then I will, if given time, return to that. But as Mr. 
Wells testified, I believe, there have been five incidents on 
the lower Missouri River that there have been pulses or surges 
that have exceeded the design pulse at least in this flow that 
we have. And wouldn't that mimic the natural, you call it the 
natural hydrograph, during that period of time?
    And is there any evidence that there has been natural 
reproduction of pallid sturgeon in that lower portion of the 
river that may have been triggered by those natural pulses or 
previous natural pulses since the time of the implementation of 
our reservoir system?
    Mr. King. I think, if I recall on the numbers that I've 
seen, is there is very little evidence at all of any natural 
reproduction and natural recruitment all the way to a free 
swimming fish in pallid sturgeon. Now shortnose sturgeon there 
is.
    To answer your question that you had earlier, in 1997, 412 
10-inch pallid sturgeon were stocked in the lower Platte. In 
1998, 17,500 larval pallid sturgeon were hatched at Garrison 
and they were taken to Gavins Point Fish Hatchery for further 
rearing. In 2000, approximately 400 juvenile pallid sturgeon 
were released from Gavins Point and were stocked. The numbers 
are much lower, and I'm not quite sure if the numbers that 
you've got again might have been somebody talking about 
shortnose sturgeon versus pallid.
    In my discussions with our folks at Bozeman Fish Technology 
Center, the rearing of pallid sturgeon, the spawning of pallid 
sturgeon is extremely sensitive.
    Mr. King of Iowa. I recognize that you don't have any 
results there from the Yankton Hatchery. Would you have those 
numbers in front of you?
    Mr. King. I don't have those in front of me, but we'll get 
the complete package for you.
    Mr. King of Iowa. I did visit that hatchery and I don't 
have any numbers in front of me, but that's what I did learn 
that day, at least as the number of eggs and the percentage of 
successful fertilization and actually I call it weaning them, 
and so if they're--
    Mr. King. I'll check.
    Mr. King of Iowa. Pardon me?
    Mr. King. I'll check.
    Mr. King of Iowa. Okay. I thought you had another name for 
weaning these fish.
    Mr. King. No. Weaning is good for me.
    Mr. King of Iowa. Okay, then a couple more questions. Is 
there evidence that there's a regional genetic imprint that's 
part of the genetics of these fish? If you go up to three-
fourths and net these females and breed them, take them down 
and release them perhaps in the lower part of the Missouri 
River down in Mr. Wells' territory, do they stay there? Do they 
swim away?
    What I'm trying to get at here is can we take these fish 
and transfer them north and south across that river above the 
dams, below the dams? Will they freely establish a typical 
habitat for them where the habitat is most conducive to their 
survival or are they directed by a genetic imprint like a 
salmon might be?
    Ms. Haseltine. I think we have a little information on the 
genetics of these fish, but not the whole story. But we do know 
that in the lower free-flowing part of the river from the lower 
Mississippi up the Missouri, we have fish that travel that 
whole length. So we would expect that we will not find great 
genetic distinctions there because have evidence of fish moving 
so far. Now much of the rest of the population is trapped by 
dams and reservoirs, so we don't really--and we don't have 
enough information to really give you a definitive answer.
    Mr. King of Iowa. Okay, then that resolves at least 
conditional to your response being, and you've conditioned it a 
little bit. But I'm back to this question if we don't have 
evidence, at least significant evidence that the sturgeon has 
reproduced under the pulses or the surges that have occurred 
naturally, as testified by Mr. Wells, then why do we think that 
if we create lesser surges that really don't meet, if we create 
lesser surges, why do we think that we're going to have 
reproduction under those conditions, if we can't have 
reproduction under natural conditions that exceed them, meet 
and exceed?
    Mr. King. Fair question. First, I'd have to speak to Mr. 
Wells' discussion about natural spring pulses. As you move 
further downstream, because of the uninhibited input from 
uninhibited streams, streams that are fairly free-flowing, you 
do see more natural spring pulses. You start to see that as you 
move further down away from Gavins Point down. The unfortunate 
thing is because these fish swim so much, they move up towards 
Gavins Point Dam; that's their response, and as they get closer 
to Gavins Point Dam, they start losing the impact of any kind 
of a spring pulse. The result is they get ready; they're moving 
up. They're ready to spawn. They're getting all of the impulses 
that they think, but then, as they move further upstream, the 
impulses fade away. The interesting thing is right below Gavins 
Point Dam, 60 miles or so below Gavins Point Dam, is some of 
the best habitat, but the pulse is diminished because you don't 
have those in-flowing streams as you move further down.
    Mr. King of Iowa. Okay, but Mr. King, I can't quite accept 
an idea that perhaps the fish that would naturally be living in 
St. Louis or downstream from St. Louis would swim the whole 
1800 miles up there, so there must have been a strain of pallid 
sturgeon that would spawn perhaps in the Platte River as 
opposed to the upper reaches of the Missouri River.
    What's happened to that particular section of the species?
    No, let me just take this to the real question and that is 
the emphasis here was that my questioning focuses on separating 
the species from the flow of the river. And in fact, what I'm 
seeking to do is identify what portions of this natural 
hydrograph, as you've testified, really are necessary for the 
reproduction of the pallid sturgeon. I mean we're sitting here, 
the testimony, I think, the tone of it would be under the 
assumption that no matter that if we could reproduce this 
natural hydrograph, then everything would be okay and that the 
species would recover.
    And perhaps there's no portion of this natural hydrograph 
that is necessary for the reproduction of the species and if 
that natural hydrograph that exists in the lower part of the 
river, you can qualify that question, hasn't produced that kind 
of reproductive results, we're going to great lengths here to 
try to reproduce something that we can never reach this natural 
hydrograph with dams in the river.
    And so why would we think that something less than that 
would work when we have examples up and down this river and 
even up in my stretch of the river in the tributaries of the 
Boyer and the Little Sioux and those rivers that haven't 
produced reproduction of the pallid sturgeon.
    So great lengths to reproduce a tiny little shadow of the 
natural hydrograph that may never get us to the point where we 
would like to be to reestablish the species. We could do this 
for 100 years and then finally decide well, let's just go hatch 
a million of them and turn them loose to save the species.
    Mr. King. First of all, the overall package for the pallid 
sturgeon is not just the releases. As I mentioned earlier, 
there's habitat work that's going on. There's work at the 
hatchery, so that will be a piece of the puzzle at some point 
in time. We have, although I agree with Ms. Haseltine that 
there's not a genetics issue, we don't think that's the case, 
we do have some disease issues that States are a little 
concerned about, diseases from one hatchery to another.
    But the bottom line is that there's three real pieces to 
this puzzle. One is restoring the natural hydrograph. One is 
dealing with them in a hatchery environment and trying to make 
sure that that piece is there and one is talking about making 
sure that their habitat in the rivers is available for them. 
So, we're working on all three of those. We're not just 
focusing on the one. We're also working upstream with Bureau of 
Reclamation, the Yellowstone Project, to try to improve 
opportunities there. We're doing everything we can do all over 
this river system and we're not just focusing on this issue.
    At this point in time this hearing is focused on Gavins 
Point and the flow issues.
    Mr. King of Iowa. One more question then, Mr. King, and 
that is that we're seeking to reestablish a natural habitat for 
the reasons that you've stated and probably a number of others 
besides. Are there predator species within the river that might 
be preying on pallid sturgeon that didn't exist during the time 
that they were reproducing freely in a relatively prosperous 
manner?
    Mr. King. I'm not sure I can answer that question. I think 
the answer is no, not in the river systems. In the lake 
systems, there certainly is and for those fish that for any 
kind of eggs and larvae that might be floating down the river 
system and ending up in one of the lakes on the upper end, that 
might be a problem, but I don't think that's a problem in the 
lower end.
    Do you have any indication?
    Ms. Haseltine. I would that predation concerns are at the 
larval stage. There are both natural and introduced predators 
at the larval stage, but that's kind of a normal part of the 
fish's live history.
    Mr. King of Iowa. Would you be able to name some of those 
species, Ms. Haseltine, that are in the river today that would 
be predators that weren't there perhaps at the time of Lewis 
and Clark?
    Ms. Haseltine. I'd have to get back to you.
    Mr. King of Iowa. How about the Walleye?
    Ms. Haseltine. The Walleye certainly in the upper 
reservoirs and reaches. I think that's what--
    Mr. King of Iowa. It's in our mind and we just haven't said 
it that there are far more Walleye that have been introduced up 
there that were not a natural species to the river that we can 
determine and that having it in the lakes also means that they 
exist in the river and so has there been a study on whether 
that extra predator, that aggressive predator has had an impact 
on the successful spawning of the sturgeon?
    Mr. King. I don't know of any study, but what I'll do is 
I'll get back to our river fishery ecologist, and we'll get you 
an answer to that question.
    Mr. King of Iowa. Thank you, Mr. King. Thank you, Mr. 
Chairman.
    Chairman Graves. Mr. Wells, I'd be interested in your 
comments. As you've listened to this, as Chief of Water 
Resources for the State of Missouri, you're obviously very well 
in tune with what's going on and what's being proposed. I would 
be very interested in hearing what you have to say.
    Mr. Wells. Well, I'll go back to what Congressman King just 
said. I think one of the points that we were trying to make in 
our testimony is that we have many natural spring rises on the 
lower Missouri River and the Mississippi and also on the 
Yellowstone, the 1600 miles is just the Missouri and the 
Mississippi. And we also know that the pallid sturgeon is found 
in the Atchafalaya River.
    When we look at what's being proposed here, it is really 
for about a hundred miles just below Gavins Point Dam. Whether 
you want to call that a controlled experiment or not, I mean we 
understand the complexities of conducting an experiment in a 
natural river, especially down in our part of the world where 
we get rises over night.
    But going back to my testimony, just last year, we just 
looked at last year, we know it's going to vary during the 
period of March until June. We had five rises at Boonville and 
we just looked at Boonville. We know at St. Joe we had similar 
situations and in Kansas City. but all of the rises that 
exceeded what's being proposed here, greatly exceeded in 
duration and magnitude of rise.
    So I think back to what Congressman King is saying here, we 
just don't understand the importance of it, just looking at the 
hundred miles right below Gavins Point Dam. I understand what 
Mr. King said here from the standpoint of the fish swimming 
upstream, but you've got to look at the whole river and where 
they're coming from. Those that are coming up to spawn around 
Boonville and Lisbon Bottoms and the area we have there, with 
the natural spring rise, we just believe that this is an 
experiment that has the potential to harm our citizens and 
there's just not the science to support it.
    We support the research work that's being done. We think we 
need to have more baseline information before we move forward. 
Let's try to find out more about the pallid sturgeon. We've 
heard here, even today well, we think it's this or it might be 
this. We're playing with people's lives here and their 
livelihoods. And so we need to be more certain about what the 
results are going to be if we're going to move forward.
    Chairman Graves. I think you just summed it up with that 
statement. We're playing with people's lives and we're playing 
with people's lives and putting the best interests of the 
pallid sturgeon, I believe, ahead of people. I think that is 
absolutely the wrong approach. I think it's a very reckless 
approach and some, I guess, could say that it's reckless not to 
be taking care of the pallid sturgeon, but I truly believe and 
I'm not a biologist, but I believe the pallid sturgeon can take 
care of itself and it's going to spawn. We've got lots of 
reports.
    In fact, the one I'm looking at right now by Donald 
Jorgensen who is retired from the U.S. Geological Survey and 
claims that the results, there's no indication that spring rise 
is essential to cue spawning of the Missouri River fish 
species, any fish species, and we'd be happy to provide this 
for anybody that wants it.
    But there's a lot of conflicting testimony out there. There 
are those who say it's going to work and those who say it's not 
going to work and as Mr. King pointed out, I think we need to, 
and Mr. Wells pointed out, we need to gather a lot more data 
before we start playing, as I pointed out in my opening 
statement, Russian Roulette with people's lives and I believe 
that's what it is.
    We're going to have votes called pretty quickly, so I want 
to go ahead and seat the third panel and try to get started 
with that so we can hear that testimony and have questions, 
because unfortunately, we'll probably have a pause in between 
the testimony for votes. But I appreciate everybody coming and 
let's bring the third panel up and get them seated.
    [Pause.]
    We'll go ahead and get started. Again, we do have some 
votes that are probably coming up, so I want to get started 
with the testimony and then we can come back to questions, but 
again, I want to state that all, everyone's statements, 
including the Members, will be placed in the record in their 
entirety.
    We have Charlie Kruse, President of the Missouri Farm 
Bureau with us. We also have Lynn Muench, Vice President of the 
American Waterways Operators out of St. Louis. Steve Taylor, 
with the Missouri Corn Growers Association and Coalition to 
Protect the Missouri River. Tom Waters who is a farmer on the 
river and understands all too well the impact that the river 
has and I'll let Mr. King introduce our last panelist.
    Mr. King of Iowa. Thank you, Mr. Chairman. Our last 
panelist is Mr. Dave Sieck from Glenwood, Iowa. He's the past 
president of the Iowa Corn Growers, current member of the board 
and not a bottom feeder, but a bottom farmer in the Missouri 
River bottom. Thank you, Mr. Chairman.
    Chairman Graves. We'll start out with Charlie Kruse.
    Charlie, thanks for being here. I appreciate you coming all 
the way to Washington to testify.

        STATEMENT OF CHARLIE KRUSE, MISSOURI FARM BUREAU

    Mr. Kruse. Thank you very much, Mr. Chairman, and thank you 
for having this hearing. And Congressman King, our neighbor to 
the north, we appreciate your interest in this as well.
    My name is Charlie Kruse. I'm the president of the Missouri 
Farm Bureau, a general farm organization with over 103,000 
member families. I am also a fourth generation farmer from 
Southeast Missouri.
    The Subcommittee's interest in management of the Missouri 
River is very much appreciated as we continue to hope that 
common sense will ultimately prevail. Missouri Farm Bureau 
continues to oppose any kind of man-made spring rise on the 
Missouri River.
    Many of us here today and so many back home had faith in 
the system, faith that policy makers and elected officials 
would understand that no bird or fish is more important than 
the fundamental rights of landowners. From our perspective, it 
is amazing that two birds, a fish and a handful of Government 
biologists can hold a river hostage.
    Yet, the U.S. Army Corps of Engineers will say they have no 
choice; pointing to the tentacles of the Endangered Species Act 
and the demands of U.S. Fish and Wildlife biologists. The 
biologists say they think, perhaps, that a man-made rise will 
trigger a spawning cue, but can't be sure. And the U.S. 
Geological Survey has bought into the fishing expedition saying 
they have a baseline and will solve the mystery given enough 
time and money.
    Obviously, there is no consensus on a man-made spring rise. 
Yet, the Corps, the U.S. Fish and Wildlife Service and U.S. 
Geological Survey believe it's prudent to hide behind the 
Endangered Species Act and disregard the views of landowners, 
many of whom have expressed their concerns time and time and 
time again. Their feelings were summarized by stickers worn at 
a meeting last summer saying ``My Farm is Not Your 
Laboratory.''
    The final Annual Operating Plan for 2006 is proof that the 
Endangered Species Act has major flaws. It is meant to be a 
crutch for species not a shield for bureaucrats. In this 
regard, I applaud the House of Representatives for approving 
much-needed ESA reforms. And Congressman Graves, we're proud of 
the role that you've played in trying to make some of these 
things happen.
    Our involvement in this issue will continue. However, 
landowners have no confidence in the scientific ``expertise'' 
of the U.S. Fish and Wildlife Service. The Service, in our 
view, is determined to implement a man-made rise, now renamed a 
pulse, in 2006. In fact, at last year's Plenary Group meeting 
in Omaha, the Service disregarded the views of stakeholders 
from throughout the Basin and lowered the preclude to 36.5 
million acre feet--a number they thought achievable even under 
current drought conditions. Yet, federal computer projections 
were wrong and the scheduled March rise did not occur.
    The Missouri River system was constructed for two primary 
purposes: flood control and navigation. Over time, the system 
has yielded many diverse benefits including stable supplies of 
drinking water, hydroelectric power generation and the 
expansion of recreational opportunities. Today, we find 
ourselves fighting a federal law that will increase the 
potential for flooding and increase the uncertainty surrounding 
commercial navigation.
    Much has been said about the science associated with a 
spring rise. Given enough time and money engineers can do 
amazing things, perhaps even determine the exact needs of the 
prehistoric pallid sturgeon. But in the end, we have to ask 
ourselves if this is what we want. Do we want to protect this 
fish at all costs? Is it worth jeopardizing human lives and the 
livelihood of farmers along the Missouri River? We think not.
    In our opinion, the 2006 Annual Operating Plan is nothing 
more than a grand experiment advocated by Government biologists 
with nothing to lose and research dollars to gain. These people 
ignore the fact that man-made rises increase the likelihood of 
flooding and harm to our citizens.
    Today, many Missouri farmers are dealing with the impacts 
of drought conditions, rising input costs and weak commodity 
prices. And apparently, on top of all this, we're going to add 
the uncertainty of a man-made spring rise. In our opinion, this 
farce should be called off and the focus should be directed 
towards making our inland waterway system more efficient and 
more competitive.
    For 26 years I wore the same uniform worn by the U.S. Army 
Corps of Engineers and I must tell you that I am shocked and 
saddened that the Corps would take steps to impose potential 
flooding on the citizens of this country. I was always taught 
that the mission of the Corps was to manage the United States' 
navigable waters, not to react to the whims of 
environmentalists and put citizens in harm's way. If anyone 
wonders why people are losing faith in our Government today, 
this is a classic example of a great lack of common sense.
    We participated in this process every step of the way and 
we're not going to give up now, but suffice it to say, we 
believe officials have already made up their minds, thus we 
have no confidence in their decisions or the science being used 
to justify those decisions.
    Thank you very much, Mr. Chairman.
    [Mr. Kruse's testimony may be found in the appendix.]
    Chairman Graves. Thank you, Mr. Kruse. Next, we'll go ahead 
and take testimony from Lynn Muench, who is vice president of 
the American Waterways Operators. I think we can get your 
testimony in and then we can run over and vote. There's three 
votes. We shouldn't be too terribly long, but we do have to run 
and vote.
    But Lynn, we'll go ahead and take your testimony.

 STATEMENT OF LYNN M. MUENCH, THE AMERICAN WATERWAYS OPERATORS

    Ms. Muench. Mr. Chairman, thank you, and the distinguished 
Members of the Committee for an opportunity to make comments on 
the operation of the Missouri River and the impacts the 
operations have on small businesses throughout the nation.
    AWO is the national trade association for the U.S. tugboat, 
towboat and barge industry. The industry safely and efficiently 
moves over 800 million tons of cargo each year, including more 
than 60 percent of the U.S. export corn and other bulk 
commodities that are the building blocks of the U.S. economy.
    Why does AWO's membership have concerns with the proposed 
spring rises on the Missouri River? There are two principal 
reasons. First, the spring rise will decrease the navigational 
reliability of the Missouri and Mississippi Rivers as it 
further diminishes congressionally-authorized navigation. And 
two, this proposal will harm a key customer of the barge and 
towing industry, the Midwest farmer.
    The Committee invited AWO here to answer a simple question, 
the Missouri River and its spring rise, science or science 
fiction? The answer is simple. It is science fiction.
    It continues to astound me and most reasonable and 
thoughtful stakeholders throughout the Mississippi River why 
the spring rise exists. This is an attempt to turn the entire 
lower basin and its citizens, including the Mississippi River, 
into a lab experiment is an example of big government gone 
amok.
    This spring and summer, over 50 Missouri River stakeholders 
spent countless hours as part of the spring rise plenary group 
sponsored by the Corps, the Service and several other Federal 
agencies, including the Environmental Protection Agency. The 
group did come to a consensus that, unfortunately, the Corps 
and Service continue to ignore, in a truly unprecedented and 
remarkable the Upper Basin, Lower Basin and the Tribes all 
agreed that there should be no spring rise as long as the 
drought persists. That recommendation has been ignored.
    Here are some of the things we learned during the session 
and information that the Corps and Service continued to ignore. 
There are three areas on the river system that appear to be 
viable areas and much preferred from a scientific nature than 
below Gavins Point Dam to recover the pallid sturgeon. These 
three areas have variable spring rises from none to several. 
The Missouri River already has over 500 miles with a naturally-
occurring spring rise. This information indicates that a spring 
rise probably has little, if any, impact on the spawning cue of 
the species.
    One of the groups reporting to the plenary group identified 
several ``outside the box'' real ways to recover and test the 
recovery methods of the pallid sturgeon. None have been 
incorporated by the Service under its ``adaptive management'' 
scheme. Contrary to what you heard earlier today, the Service 
also continues to ignore the best available science they 
purport to use.
    The Biological Opinion represents nothing more than the 
values of some members of the Service that implements policy 
instead of offering science for policy makers to evaluate. This 
Biological Opinion is not supported by scientific fact. It is 
clearly science fiction.
    The new Master Manual increased the number of non-
navigation days in 2005, threefold from 17 to 48 days. Now this 
flexible spring rise will decrease the navigation season by a 
minimum of one more day this year at a minimum, over the 15 to 
61 the Corps predicts for 2006. As the reservoirs continue to 
be tapped for the excessive waste of water, non-navigation days 
will continue to increase as long as the drought persists in 
the basin.
    This change will undoubtedly continue to reduce the flow 
from the Missouri River that contributes up to 88 percent of 
the water in the middle Mississippi. During 2005, with low 
water on the Mississippi River and as Midwestern farmers 
struggled to get their export products to New Orleans following 
the hurricanes, the Northwestern Division shut off the flows 
from the Missouri River, resulting in up to two feet of 
decreased water levels in October and November in the 
Mississippi River. This action decreased every southbound tow 
by a minimum of 407,000 bushels, up to as much as 655,000 
bushels of soybeans or corn.
    Mr. Chairman, in conclusion, the Corps and the Service 
continue to disregard the President, the Congress and Federal 
Courts. For the economic well-being of the small businesses of 
the Midwest and especially it's agricultural community, these 
agencies must be directed by Congress to adhere to the primary 
purposes of the Missouri River system, navigation and flood 
control and to do so on the basis of sound science, not science 
fiction.
    Once again, on behalf of AWO, I'd like to thank the entire 
Committee for the invitation and your attention.
    [Ms. Muench's testimony may be found in the appendix.]
    Chairman Graves. Thank you, Ms. Muench. We'll recess for 
just, hopefully, a brief period of time. I apologize again for 
votes coming in the middle. It shouldn't take us very long at 
all and then we'll come back, Steve, and we'll start right off 
with your testimony.
    [Off the record.]
    Chairman Graves. We'll go ahead and come back to order. 
Again, I apologize for the delay in votes. Hopefully, it didn't 
have too big an impact. Looks like we lost some of our 
audience, but that's all right.
    Steve, we'll go ahead and move to you with the Missouri 
Corn Growers and the Coalition to Protect Missouri River. I 
appreciate you being here and coming all this way and I look 
forward to your testimony.

STATEMENT OF STEVEN K. TAYLOR, MISSOURI CORN GROWERS, COALITION 
                 TO PROTECT THE MISSOURI RIVER

    Mr. Taylor. Chairman Graves, thank you, and Members of the 
Subcommittee. My name is Steve Taylor. I'm the chairman of the 
Coalition to Protect the Missouri River, a diverse group 
representing utility, navigational and agricultural interests. 
Again, I thank you for this opportunity to be here today.
    The U.S. Fish and Wildlife Service states in its 2003 
Amended Biological Opinion that spring rises are mandated for 
the Missouri River. Also, within the Department of the 
Interior, the U.S. Geological Survey is tasked with providing 
science that assists policy makers regarding complicated, 
natural resource issues such as the spring rise. The USGS 
states that the 2003 Biological Opinion is based, in large part 
from a National Research Council report entitled ``The Missouri 
River Ecosystem: Exploring the Prospects for Recovery.'' This 
report was sponsored by the Corps of Engineers and the 
Environmental Protection Agency. Instead of focusing on species 
recovery, however, these agencies ask the NRC to develop a 
report on policies that could promote flood plain ecosystem 
management.
    This is where some slight of hand occurred. The issue was 
species recovery, but the Corps has asked instead for a system 
and ecocystem recovery. The confusion and chaos this mix-up of 
science causes came sharply in the focus last year with the 
Corps and Fish and Wildlife Service attempt to design a spring 
rise from the Missouri River. The U.S. Corps of Engineers 
sponsored an intergovernmental and stakeholder group process to 
develop a recommendation for implementing a spring rise. But 
because of the use of ecosystem science and a lack of species 
recovery science, the process failed.
    In an amazing show of abstinent persistence, the Corps and 
the Fish and Wildlife Service acknowledged the failure, but 
continued its dedication to this failed process by announcing 
the development of yet another inter-governmental and 
stakeholder group to work on the spring rise.
    Now let me focus on the true status of the science of the 
sturgeon recovery, some of which we've heard already today. 
Because of the NRC report, spring rises are currently the main 
focus of species recovery, but how important are the spring 
rises to species recovery? Do spring rises help the fish to 
spawn? Is spawning the problem? Are there other threats to the 
sturgeon during the life cycle? No one really knows because the 
science is lacking. We do know that the spawning surveys of 85 
species of Missouri River fish indicate a spring rise is not 
necessary. And again, as we've heard today, temperature the 
photoperiod has been suggestions of primary cue to spawn.
    In a September 2005 USGS survey which you quoted, it did 
actually provide some limited information on sturgeon research 
in the Missouri River. There was some fascinating information 
in this report. Again, as you said, there was 75 percent 
spawning success rate, successful spawning without the mandated 
spring rise.
    We were also encouraged to see that this limited research 
also looked at water temperature, depths, physical habitats, 
quantity of habitat, the spawning substrates regarding gravel 
and rock deposits within the channel. While expanding the 
research for spawning beyond just flow is encouraging, we would 
also encourage more research on the entire life cycle of the 
sturgeon.
    We are also encouraged by some of the recent comments of 
USGS which they've stated that ``scientific data about what 
management benefit sturgeon are limited.'' But notwithstanding 
the dictatorial stance of the Department of the Interior that a 
spring rise is mandated, some scientists are being true to 
their fundamental obligation as scientists, they're beginning 
to step forward, acknowledge the lack of science supporting the 
spring rise and questioning the importance of the spring rise.
    We hope this trend continues and that other scientists 
realize that the longer that they stand on the quicksand which 
is a science supporting the spring rise, the more they do so at 
their own professional peril.
    The Congress and the White House need to encourage agencies 
to make what little information that does exist more available 
and to allow for more true partnerships in the question for 
information. Data and information is all important. Congress 
appropriates millions of dollars to assist endangered species 
on the Missouri River. A portion of this money should be 
provided to scientists outside the U.S. Department of the 
Interior.
    And again, Chairman Graves, I thank you for your time.
    [Mr. Taylor's testimony may be found in the appendix.]
    Chairman Graves. Thanks, Steve.
    Next, we'll hear from Tom Waters. Tom, I appreciate you 
coming all the way. I know you know the river very well and I 
look forward to your testimony.

              STATEMENT OF TOM WATERS, WATERS FARM

    Mr. Waters. Thank you, good afternoon. My name is Tom 
Waters. I am a seventh generation farmer from Ray County, 
Missouri. I own and operate our family farm in the Missouri 
River bottoms near Orrick, Missouri. I also serve as the 
chairman of the Missouri Levee and Drainage District 
Association, where I represent farmers, landowners, businesses 
and others interested in the issues surrounding the Missouri 
River and its tributaries. I am a member of the Missouri-
Arkansas River Basins Association Board of Directors and serve 
as president of three local levee and drainage districts, which 
combined encompass over 20,000 acres of Missouri River 
bottomland.
    Mr. Chairman, I want to thank you for this opportunity to 
provide testimony regarding the Missouri River. It's a great 
honor to have the opportunity to travel to our Nation's Capitol 
and represent my friends, colleagues and citizens from home.
    I am here to share my thoughts with you regarding the 
United States Army Corps of Engineers plans for increasing 
flows on the Missouri River twice during Missouri's spring 
planting season.
    It has become increasingly clear the Corps' plan for a 
spring rise will be designed to intentionally flood Missouri 
River Bottomlands. Representatives from the U.S. Army Corps of 
Engineers and the U.S. Fish and Wildlife Service describe the 
spring pulse as a means to connect the river to the floodplain. 
They tell us the purpose of the spring pulse is to provide some 
semblance of the ``natural hydrograph'' which historically 
inundated the floodplain.
    The reason the mainstem reservoir system was built was to 
protect against the inundation of the floodplains. On two 
different occasions, the 8th Circuit Court of Appeals in St. 
Louis has clearly stated ``the 1944 Flood Control Act has been 
interpreted to hold flood control and navigation dominant and 
recreation, fish and wildlife secondary.''
    The Corps' 2006 Annual Operating Plan ignores the Court's 
opinion and includes two opportunities to cause intentional 
flooding along the river. I fully expect without changes, 
future Annual Operating Plans will include even greater threats 
to bottomland farmers, small businesses and communities as the 
Corps increases flows.
    On March 1st, the Corps of Engineers announced there would 
not be a March spring rise this year. Severe drought conditions 
in the Upper Missouri River Basin have caused reservoirs to 
reach all-time low levels. It is very sad we have to rely on 
such severe drought conditions to stop the implementation of 
the March spring rise.
    I believe these man-made spring rises are in direct 
conflict with the Corps' mission of flood control. How can the 
Corps of Engineers protect our farms, businesses, homes and 
communities from flooding and at the same time make releases 
from the reservoir system with the purpose of connecting the 
river to the floodplains? The two goals are incompatible and 
the Corps' efforts to do both is doomed to fail. Maybe not this 
year or the next year, but the Corps of Engineers and the Fish 
and Wildlife Service are playing a game of Russian Roulette 
with this super-sized science experiment and sooner or later 
the small businesses, landowners and communities along the 
river will pay a high price for their actions.
    Increased river levels in the spring keep land near the 
river wet when farmers need to be preparing soil and planting 
crops. Drainage outlet pipes need to be open in the spring to 
help drain water from the normal spring rainy season. A high 
river in the spring causes outlet flood gates to be covered. 
This holds back water, which would normally be released into 
the river, increasing the risk of flooding and keeping land 
covered with water longer following heavy spring rains.
    I know the effects of a high river. It's is a risk I face 
each time I plant a crop. For seven generations my family has 
faced the risk of a high river due to Mother Nature's 
unpredictable weather patterns. But we have never had to face a 
man-made rise designed to flood us. It is amazing the same 
system built by previous generations to protect rich Missouri 
River bottomlands can now be used to flood this land, which 
produces food and fiber for a hungry world.
    By building the reservoir system, Congress made a 
commitment to the American people. It was a promise and 
commitment of flood control and navigation. Businesses, 
communities and farmers rely on that commitment for their 
livelihoods. The spring rise is the first step in dissolving 
the commitment and it places a heavy burden on those who rely 
on the river system for flood protection.
    It is my hope that Congress will take a hard look at the 
dangerous direction the Corps of Engineers has taken with their 
plan to intentionally flood lands along the Missouri River. I 
appreciate your time and willingness to serve as 
Representatives in Congress and thank you for this opportunity 
to be here. I want to mention one other thing, Chairman. I 
heard you apologize a couple of times for going to vote and I 
just want to let you know that my friends and neighbors voted 
for you to be here to vote and we're proud you do that for us. 
Thank you.
    [Mr. Waters' testimony may be found in the appendix.]
    Chairman Graves. I appreciate that. Next we're going to 
hear from David Sieck, and David, I appreciate you being here 
from Iowa, representing the Iowa corn growers.

          STATEMENT OF DAVID SIECK, IOWA CORN GROWERS

    Mr. Sieck. First, I'd like to thank you, Mr. Chairman, and 
Members of the Committee for the opportunity to comment on the 
Missouri River spring rise plan. Farmers appreciate that 
Congress is willing to call attention and investigate whether a 
spring rise is justified. My name is David Sieck. I farm in 
Glenwood, Iowa and I'm a third generation farmer. I am a member 
of the Iowa Corn Growers Board of Directors and past president 
of the Iowa Corn Growers Association.
    My family farm is located along the Missouri River and our 
family has farmed that ground along the river since the 1940s. 
I would actually like to say that prior to my grandfather 
buying the ground, I've seen title that said ground previously 
located in Sarpe County, Nebraska, now residing in Mills 
County, Iowa. So I've truly had land that's been in two 
different States.
    I have been personally involved in many stakeholder 
meetings regarding the Missouri River over the past 12 years. I 
have most recently been a member of the Socio-Economic 
Technical Working Group of the Plenary Committee during 2005 to 
determine the stakeholders' opinions regarding the proposed 
spring rise in 2006. It was my opinion then, and continues to 
be my opinion now, that the spring rise is not justified by 
science, and will cause extensive economic harm to farmers as 
well as Iowa communities.
    Farmers strongly oppose the spring rise plan for 2006 and 
the years thereafter. The spring rise was proposed because of 
the pallid sturgeon. While it is documented that the pallid 
sturgeon numbers are low, there's no scientific certainty the 
spring rise will bring back the population. In fact, the 2005 
study by the U.S. Geological Survey shows that temperature is a 
much more important factor for the fish's ability to survive 
than flow changes.
    In 2005, the U.S. Geological Survey completed an extensive 
survey. We've talked about that a lot today and this research 
project was to learn more about the pallid sturgeon's 
reproductive habits. The study showed that the shovelnose 
sturgeon is used as an example because it is a close relative 
of the pallid. On September 14, 2005, the Geological Survey 
published a report entitled ``Update on Sturgeon Research'' 
which concludes that without changing any flows on the Missouri 
River, 75 percent of the pallid sturgeon tracked had spawned, 
including fish in the upper Missouri and Gavins Point. This 
study corresponds with past studies that have shown no 
correlation between sturgeon spawning and the spring rise.
    The Fish and Wildlife Service's Biological Opinion demands 
a spring rise as a spawning cue for the pallid sturgeon, but 
information in the 2004 Army Corps' Revised Draft Environmental 
Impact Statement Executive Summary states, ``Corps and USFWS 
biologists agree that there is no data to support definition of 
a spawning cue that would successfully result in spawning on 
the Lower River.'' The Corps affirms in the Revised Draft 
Master Manual review that ``this lack of information supported 
the general understanding between the Corps and the Fish and 
Wildlife Service staffs that the required spawning cue is 
basically unknown at this point in time. Corps staff understood 
that the criteria were hypothetical, and they did not have 
supporting data, analysis, and documentation of associated 
spawning success.''
    Corps' records demonstrate that there is already a natural 
spring rise on the Missouri beginning at the mouth of the 
Platte. I'd say it goes north of that a little further because 
I farm about two miles north of that--and moving downstream. 
There is no indication that the pallid are naturally spawning 
at great levels where this natural spring rise occurs even 
though shallow water habitat is closest to ideal in that part 
of the river.
    A few short years ago, scientists said a spring rise was 
needed for the two birds, the piping plover and the least tern. 
As it turns out, these populations have increased without a 
spring rise, and even though the Fish and Wildlife Service said 
that the spring rise was essential to the nesting, in an August 
2003 press release from the Army Corps, the following was 
stated: ``The operation this summer resulted in the fourth 
straight year of record numbers of adult piping plovers and the 
second highest number of least terns.'' He added, ``This is the 
sixth consecutive year that the fledge goals have been met for 
the interior least tern. The fledge goals for the piping plover 
have been met for five of the last six years.'' This is another 
example of where the Fish and Wildlife Service's ``science'' 
was not justified.
    Iowa Corn Growers support solutions based on science, not 
experiment. The spring rise is an experiment, to see if the 
pallid sturgeon may be helped. On the other hand, a spring rise 
has a real likelihood of economic harm, not only to farmers, 
but to rural and urban communities along the Missouri River. 
The people, businesses, and communities along the Missouri 
River should not have to endure purposeful flooding, when the 
outcome of the species recovery is not certain.
    The levels of increased water proposed in the future could 
add as much as four feet to flood stages at various river 
reaches. The water, on top of natural events, could not only 
flood, but cause interior drainage problems for a large portion 
of western Iowa. This means that not only farms and communities 
directly touched by the Missouri River will be impacted, a 
spring rise will affect interior drainage miles away from the 
river banks.
    Agriculture is a major land use in the Missouri River 
Basin. It is easy to see the importance of the river to Iowa. 
Every farm in Iowa is either in the flood plain of the Missouri 
or Mississippi River. We encourage the Corps to continue to 
protect agricultural land and provide flood control for the 1.4 
million acres along the Missouri River.
    While the Iowa Corn Growers Association recognizes the 
importance of preserving our natural resources, we believe 
untested methods of preservation should not come at the expense 
of damaging farms, communities and businesses. The Army Corps 
of Engineers has the ability to place navigation and flood 
control ahead of endangered species according to the Eighth 
Circuit Court of Appeals. We are asking the Government to put 
human costs ahead of possible benefits to the pallid sturgeon.
    Again, I'd like to thank you for the ability to speak today 
and I appreciate this hearing.
    [Mr. Sieck's testimony may be found in the appendix.]
    Chairman Graves. Thank you. Thank you all. One of the first 
areas I want to get into is obviously interior drainage which I 
think there's more potential for impact and damage there, than 
anything else and I happen to be very familiar with it. We farm 
on the Turkey River Bottom which dumps directly into the 
Missouri in Holt County. We farm in Atchison County and I know 
what the river does, what happens when it gets high. I know 
what happens to our flood gates and I know how long it takes 
that water to move on out and if we get rain, everything is 
backed up and nothing moves.
    But anybody can comment if they want to and my next 
question is actually about small business impact and the 
industry impact that it's going to have, but we'll go ahead and 
start with interior drainage.
    Tom, you may want to start. You actually mentioned it in 
your testimony.
    Mr. Waters. Sure, thank you. I have a long-standing 
invitation for the Corps of Engineers and Fish and Wildlife 
folks to come out and visit my farm and look at these internal 
drainage problems. I'm happy to say several of them have been 
there. I kind of lost count of the number Generals and Colonels 
we posted, but I'd welcome you and your colleagues to come out 
as well.
    The problem we face with internal drainage with a high 
river, our drainage system is not allowed to drain into the 
river. We have flood gates at the levees that close and when we 
get an internal rain, that water is not able to drain. One of 
the drainage pipes that we take these folks to drains over 
20,000 acres. About half of that comes from the hills during 
rain events. And if those gates aren't open, that water doesn't 
drain and it just starts backing up and our ditches fill with 
water, our fields aren't able to drain. We're either not able 
to get in to plant our crop. If our crop is planted, oftentimes 
it will drown out, cause us to replant or if it's late enough, 
we may not even be able to replant, so really that's the bulk 
of our problem.
    We're also concerned, of course, about seeing a spring rise 
come when the river is full and we have a 10-inch rain event 
within that 10 days, the time that the water is released, we 
can see flooding in those instances, but I think for most 
farmers along the river, it's the internal drainage that causes 
us real havoc.
    Mr. Kruse. I think you make a very good point, Mr. 
Chairman, because I think all of us who farm know full well 
that springtime is perhaps the most uncertain time of 
probability of getting a heavy rain. You pointed out in some of 
your comments earlier, nobody can--I don't know anybody that 
can predict accurately two weeks out what the weather is going 
to do, but the spring time is when a lot of bottom land is wet 
to begin with. So I think your point is an excellent one. If 
we're going to release more water and then run the chance of 
Mother Nature deciding to create more water, it really 
exacerbates the problem greatly.
    Farmers have a certain time line for planting. And farmers 
certainly know that if you miss that time window, you may still 
get a crop planted, but you've lost the opportunity for optimal 
planting times and so I think that again creates a real 
problem.
    A lady at one of the listening sessions that I participated 
in back in Missouri made a point and I think it's a point that 
needs to be made pretty often. She said to Fish and Wildlife 
people and the Corps people, you know, what you all are going 
to do is not going to affect you personally in any way. It's 
going to have no bearing on your livelihood. It's going to have 
no bearing on what you do, but it's going to have the potential 
to have a huge impact on me personally and my family, she said.
    And I think you can translate that to people that live all 
up and down the river who are scared to death that something 
that's as void of logic as this suggestion is, has the 
potential to really cause great harm, not only economic harm, 
and not just to farmland, we're certainly concerned about 
farmland, but people who live along the river, people who have 
businesses along the river.
    We're talking about our own Government potentially causing 
great harm to people and I think it's time we do something to 
stop it.
    Chairman Graves. Dave?
    Mr. Sieck. I'd like to add one thing. I would concur with 
what they've been talking about, but I would like to add 
another perspective to that. I'm in a levee district that has 
about 22,000 acres. This levee district, as you know, in the 
1990s we experienced several from just naturally occurring 
water and it backed up and the river ran really high or out of 
its banks for weeks.
    It has weakened the structures in our levee. These tubes 
that go through were basically in our levee were corrugated 
metal tubes designed by the Corps of Engineers and these 
structures are probably 25, 27, maybe 30 years old in spots and 
what is happening is that because of all that water for long 
periods of time along the levee, these tubes are starting to 
settle and there's O-rings around them and they're starting to 
settle and pop the O-rings. So our levee district is basically 
a--it was a Federal levee, but we have paid it off and now we 
have a Board of Trustees that runs it.
    And anything, if it was a FEMA event and we were limited by 
a certain amount of time for a FEMA event to turn claims in, 
well, you know, we couldn't crawl in these tubes because the 
water may have been low, but it was still up against the tubes. 
It was no longer out of the banks. And with this, we have tubes 
that are critically damaged from all this water in the 1990s 
that didn't get it turned in under FEMA and fixed. So we're 
sitting here with the potential of lots of structures that 
maybe we've already replaced one of them. The one on the farm 
that we own has just been replaced this year with concrete 
because they're finding the steel isn't holding.
    So they're replacing these with concrete structures and 
that burden at about $250,000 a pop is having to be bore by the 
levee district because there's no federal money to do that and 
because of the fact that we couldn't turn it in under FEMA.
    So we've had the first one that's in trouble. We have 
another one that is looking like it needs it and they're 
starting to inspect all the tubes. With this increased spring 
rise, if we do get it, and this water setting against these 
levees, how are we going to bear the burden of fixing all these 
levees down the road from that increased pressure that isn't 
just caused from a natural event. We have a huge concern in our 
levee district about that.
    Chairman Graves. Mr. King?
    Mr. King of Iowa. Thank you, Mr. Chairman. First remarks, 
Mr. Waters, I've never met a seventh generation farmer and I'm 
not sure I can find it but it seems to me that Scripture says 
that the sins of the fathers will be visited upon the son of 
the seventh generation. Have you actually surpassed the statute 
of limitations established as Biblical?
    Mr. Waters. Sometimes I wonder about that. I'm proud of my 
heritage there at home. I'm proud of the farm that we take care 
of.
    Mr. King of Iowa. You have every right to be. Can you tell 
us about how many years does that span, that period of time?
    Mr. Waters. You know, actually, when I was doing the 
testimony I thought I better check that out and around 1850s is 
when my first relatives moved to the area where I farm now.
    Mr. King of Iowa. I just happen to recall that Thomas 
Jefferson declared a generation to be 19 years, so 19 times 7 
would be a little less than that, but it changes, of course, 
generation to generation. I wanted to remark on that because 
seven generations really means something and when your roots go 
down, there's a lot more to this than a crop this year. There's 
seven other generations behind, hopefully, that can make their 
living and their lives there.
    I direct my first question to Ms. Meunch. I'd just like to 
ask if you could flesh out a little bit what's happened to the 
prospects of the barge industry, in the lower Mississippi below 
St. Louis, as well as the reaches of the Missouri River, all 
the way up to Sioux City, the percentages of freight. You may 
have testified to that and I missed it.
    Ms. Muench. No. The whole structure has changed on the 
Missouri River. Let me start with that. It wasn't all that long 
ago that there were annual contracts for things that were 
shipped on the Missouri River. Now everything is in flux 
because no one can rely on the navigational flows. And the 
annual operating plan now with the Master Manual it's always a 
guessing came on what it's going to look like next year. And 
that has done a lot of things for the towing industry on the 
Missouri River in a negative sense.
    One, several companies have gone out of business because 
they just simply can't afford to play that Russian Roulette 
with their business every year, and there's also been a total 
lack of investments within the terminals and the ports on the 
Missouri River, because they're not certain that they're going 
to have those flows year after year.
    On the Mississippi River, what it's essentially done at 
this point, has only been an increase in freight rates for 
everything going north and south of St. Louis, because that's 
really a limiting factor at this point. But it hasn't changed 
really what kind of traffic is there. But there is that 
possibility, if we continue to have that unreliability during 
the major export season in October and November that it could 
negatively impact whether we can even get crops to the market 
for export.
    Mr. King of Iowa. Thank you, Ms. Meunch. I'll turn to my 
Iowa witness here, Mr. Sieck, and ask him some questions that I 
don't expect he's going to be prepared to answer.
    What was the indigenous population of bottom farmers in 
1952?
    Mr. Sieck. The indigenous?
    [Laughter.]
    Mr. Sieck. I guess in our area, I have a water mark that's 
about three and a half feet above the land that is the furthest 
away from the river, almost to the flood plain and there 
wouldn't have been many farmers out there at that period of 
time.
    Mr. King of Iowa. Because that would have been in flood 
zone and it was habitually flooded?
    Mr. Sieck. Right, and even though there was some small 
farmer levees, there wasn't the kind of protection needed in 
1952, it was pretty much bank-based.
    Mr. King of Iowa. So once the floods--when was the last 
year that the bottoms flooded in your area?
    Mr. Sieck. Before the levees or just between the levees or 
where are we talking? Because you know, the farmer levees 
weren't as good a levees. The levees now kind of hold it in 
between the banks.
    Mr. King of Iowa. I'd say as we know it today.
    Mr. Sieck. 1997 or 1998 was the last year.
    Mr. King of Iowa. 1997 or 1998?
    Mr. Sieck. Right.
    Mr. King of Iowa. And prior to that, one or two floods a 
decade or how did that run out?
    Mr. Sieck.I always say back before the 1990s we were maybe 
1 to 2 per 10. After the 1990s, with all that water, we had 
probably about three or so, and they were long periods. They 
weren't just short ups and downs, they were for weeks at a time 
where the water was out of the banks.
    Mr. King of Iowa. But the 1990s were what they were?
    Mr. Sieck. Right.
    Mr. King of Iowa. And I'll never forget that. There was a 
peak population though of farmers in the bottom during that 
period of time and I'm going to guess it probably--
    Mr. Sieck. Pretty much probably hiding in the hills during 
all high water events. They moved their cattle and everything 
off, but yes, it was the most amount of farms and the most 
amount of people out there, probably.
    Mr. King of Iowa. In the 1960s and 1970s, about in there?
    Mr. Sieck. Yes.
    Mr. King of Iowa. And I just had this bizarre thought as I 
sat here and I listened and I wondered if it were the sturgeon 
that were actually studying the indigenous population of bottom 
farmers over the last half a century, what might they recommend 
for the habitat to improve the population of the species in the 
Missouri River bottom? I suspect they would slay let's change 
some of the habitat so that they're not taking second rate to 
another species. But that was my little gambit here for fun.
    And then I want to just--Mr. Waters, did you lean towards 
the microphone?
    Mr. Waters. Yes, I was just going to assure you it wouldn't 
be a spring rise.
    Mr. King of Iowa. Thank you. Maybe that was what I was 
looking for.
    And in the Corps testimony, the requirement that they list 
under stakeholders in 2005 and Mr. Sieck, as a member of the 
Plenary Committee, were the stakeholders given an opportunity 
to discuss whether a spring rise should go forward? Did you 
weigh in on that question and if so, did you get a response on 
that?
    Mr. Sieck. I guess. I was on the Socio-Economic 
Subcommittee which dealt with stakeholders and how it affected 
us in the lower reaches and our farms and things and we were 
given sidebars when we started that there was going to be a 
spring rise, so actually, looking at alternatives that didn't 
include a spring rise was off the table. So to me, I don't know 
if we truly looked at all the alternatives and I had a real 
concern during the process because of that fact that we're 
going to have a spring rise and you guys have to decide how you 
want it done.
    Mr. King of Iowa. Thank you.
    Ms. Muench. Congressman, I was actually a part of the 
plenary group and I would like to say something for the record 
because it was very important and really quite breathtaking 
that this happened at the very end of the plenary group. And 
that was Chad Smith, who works for American Rivers, and as you 
can imagine, we're not usually on the same side of the fence, 
put up a proposal for how to move forward with the spring rise 
and part of that proposal was to have a spring rise off the 
table for 2006 period. And went through another list of what 
the spring rise would look like, including a preclude level of 
49 million acre feed which is much higher than the 36.5 that's 
presently there. The only part of that proposal that anyone had 
any problems with was the relaxation of flood control. That was 
universally from Upper Basin, Lower Basin and the Tribes.
    There were a couple of people who were very invested in 
this Biological Opinion who weren't agreeing with that, but as 
a group, the plenary group was ready to say yes, let's move 
forward with this proposal, but we've got to have the flood 
control constraints in place.
    Mr. King of Iowa. Thank you. And I'm going to direct a 
follow-on question to Mr. Kruse and that would be if and in 
spite of the resistance to this pulse that's here in this panel 
and that's here in this panel, if this goes forward and as I 
look at the yellow line on this diagram and realize that that 
line could well in subsequent years go up and up and up, and 
each year that there might be a pulse and the greater magnitude 
that's more likely in subsequent years because we expect there 
will be more water to work with in subsequent years, in fact, 
pray there will be, what would you ask the Federal Government 
to do in order to indemnify the man-created losses that could 
come from a pulse or a spring rise?
    Mr. Kruse. Congressman King, I think that's a very 
important point. There has been discussion, for example that 
the Risk Management Agency should somehow provide crop 
insurance to farmers who farm in the bottoms. I have personally 
taken the view that and you know, RMA is saying that they are 
not allowed to cover man-made events with crop insurance. I 
personally have taken the view if Federal Government agencies 
are going to impose this on citizens, it ought to be those 
agencies that figure out how to make people whole.
    I don't necessarily quarrel with the Risk Management Agency 
when they say that they are not under current law allowed to 
provide crop insurance for man-made flooding. I think this is a 
very, very important point and it goes beyond agriculture; it 
goes to people who live in these areas. It goes to people who 
have small businesses in these areas and certainly it goes to 
people who farm in these areas.
    Again, I think if there are Federal Government agencies 
that are going to impose this kind of total lack of logic event 
on people, then they ought to figure out how they're going to 
make them whole and Congressman King, I would agree exactly 
with your language, how to make these people whole, if 
something like that occurs.
    Mr. King of Iowa. Thank you. Anyone else on the panel would 
like to weigh in on that question of what the Federal 
Government ought to be obligated to do?
    Mr. Sieck?
    Mr. Sieck. Well, I guess it comes back to the subsequent 
years. And if you look at the yellow lines on your chart and 
you look at the proposed rises for this year and compare that 
to the natural hydrograph, the first rise basically mimics the 
natural hydrograph. But the second rise has been so compromised 
from the start from the natural hydrograph, I don't see how we 
could ever have a hope of success as far as making people 
whole. The crop insurance issue is a double-edged knife as far 
as we can see. If we ask for coverage under crop insurance, 
we've also given them the right to give us bigger spring rises 
because all those guys are covered now, go ahead.
    So it's a huge issue that cuts both ways and there needs to 
be some serious thought that that's just the opportunity for 
them to give us more of what we've opposed all the way along. 
So I have an issue with that.
    Mr. King of Iowa. Thank you. Anyone else?
    Mr. Waters. You know the attorneys for the Fish and 
Wildlife Service and the Corps of Engineers in Federal Court 
told the Judge that the purpose of the spring rise was to 
intentionally flood bottoms lands. So if that's the case, we 
shouldn't have to rely on crop insurance to cover us for those 
types of flooding because one thing, crop insurance is a 
percentage. You're just going to get a percentage of your loss. 
So there needs to be some way that you can recover 100 percent 
of your losses due to this Federal action.
    And so I don't know if there's a program that needs to take 
place or what, but I can tell you this, the easiest answer is 
not to have the spring rise, not to put us in that predicament 
to begin with.
    Mr. King of Iowa. Thank you. Mr. Taylor.
    Mr. Taylor. As mentioned earlier, I'm here representing 
Missouri corn growers, but I'm also chairman of the CPR which 
has over 30 some organizations as members, including chambers 
of commerce. I believe it was at the beginning of this hearing 
that Senator Talent laid out quite well the magnitude of what's 
at risk here, billions of dollars, not only in agriculture, but 
others. And that's why we have chambers of commerce and 
utilities and navigation and others that are interested in 
this.
    I thought in my testimony what would be good to frame this 
was talking about how when the USGS, the main science agency 
was asked what was the basis of science, they turned to the NRC 
report. If you take and look at that NRC report really closely, 
it really to me strikes me as goes completely against what this 
Committee is here for which is promote small business. It 
talks, in my opinion and I guess other people can read it and 
have other opinions, but in my opinion as I read it, it bemoans 
the facts that we put the dams in in the first place and that 
sort of thing. And protecting--it actually talks about the 
problems that the infrastructure and transportation, the 
population growth that's caused to the ecosystem. And that's 
fine if we're debating the ecosystem, but the issue and the 
science that we're supposed to be talking about is the pallid 
sturgeon.
    So again, I just wanted to expand it. The big picture is 
definitely a lot is at risk as far as the agricultural 
community and that's part of what I'm representing here today. 
But as Senator Talent said, there's billions of dollars at 
stake in the bottomland.
    Mr. King of Iowa. Thank you. And just in a concluding 
statement here, Mr. Chairman, I would just like to make a 
remark on Mr. Sieck's testimony with regard to the least tern 
and the piping plover and I recall as the saga unfolded, it was 
we need to have the spring rise in order to do three things, 
well, actually two things for three species. One of them was to 
wash the pallid sturgeon out into the Oxbow, so they could 
spawn. Another one was to wash the willows off of the sandbars 
so there would be a place for the plover and the tern to nest 
and then we needed to have another surge to go out there and 
flood up into the Oxbow, apparently to round up the spawned 
pallid sturgeon and bring it back into the river so they can 
swim away.
    And now we've resolved the issue with two of the species 
that you've testified and I think it was very relevant to this 
that their numbers are up several years in a row. It looks like 
their population is becoming more and more stable. We found 
ways to manage that. We found ways to hatch the sturgeon out, 
so it almost looks like there was a pre-conceived notion of 
what this river needed to be flowing like and that the species 
fit the need to design the river flow conveniently. And now 
we're down to one species instead of three. That's great 
progress in a way. If we could continue this kind of progress, 
this question would be over.
    But the part that disturbs me yet, as I look at these lines 
on this graph, the yellow, the orange and the two blues, is the 
idealistic viewpoint that we should get to the natural 
hydrograph and the impossibility of getting there with dams in 
the river, and so if we don't know to what degree we need to 
mimic the natural hydrograph or what portion of it is necessary 
for reproduction, it may be impossible to ever have the type 
of, if it is indeed even effective in the spawning, it may be 
impossible to ever reach the level of the flow of the river. It 
is impossible to reach the natural hydrograph. So what less 
than that ideal, if that is the ideal, would it be required for 
the reproduction of the pallid sturgeon? And this is, I've been 
somewhat amazed with the skill in language that I'm seeing 
here, but what did I read, the super-size science experiment, I 
appreciated that remark and I think with that, I would conclude 
my remarks and thank the Chairman.
    I yield back.
    Chairman Graves. Thank you, Mr. King. You're exactly right. 
We don't know what degree we're ever going to be able to 
achieve the natural hydrograph. We do know that the pallid 
sturgeon has adapted. It's adapted in our fisheries. I mean the 
fact is they're swimming around in circles at least in our 
hatcheries.
    I do think they will adapt. We can't lose sight of the fact 
that it affects not only farmers, but it affects businesses. It 
affects power plants. It affects communities. And we just 
barely touched on that whole aspect of it.
    This is an important issue. It's a very powerful issue and 
it's something that concerns me. I get myself in trouble 
sometimes when I say things and I know my staff gets a little 
upset, but the fact of the matter is if--I hate to lose a 
species, but if we were to lose the pallid sturgeon, as a 
result of--because we've become more commercial, we've got more 
people farming the river and it becomes another one of the 90 
percent of the species that have lived on this planet and are 
now extinct. I'm sorry for that, but I'm not going to put fish 
or two birds for that matter ahead of people. And I think we 
have to bear that in mind.
    Thank you all for being here. I do want to thank Mr. King 
and General Martin and Mr. Wells for sticking through the 
hearing. I appreciate that very much for you sticking by and 
listening to the rest of the testimony in light of the votes 
that we had. And we do have to vacate the hearing room. We ran 
a little over time, but I do appreciate everybody being here 
and thank you so much for your testimony.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7431.001
    
    [GRAPHIC] [TIFF OMITTED] T7431.002
    
    [GRAPHIC] [TIFF OMITTED] T7431.003
    
    [GRAPHIC] [TIFF OMITTED] T7431.004
    
    [GRAPHIC] [TIFF OMITTED] T7431.005
    
    [GRAPHIC] [TIFF OMITTED] T7431.006
    
    [GRAPHIC] [TIFF OMITTED] T7431.007
    
    [GRAPHIC] [TIFF OMITTED] T7431.008
    
    [GRAPHIC] [TIFF OMITTED] T7431.009
    
    [GRAPHIC] [TIFF OMITTED] T7431.010
    
    [GRAPHIC] [TIFF OMITTED] T7431.011
    
    [GRAPHIC] [TIFF OMITTED] T7431.012
    
    [GRAPHIC] [TIFF OMITTED] T7431.013
    
    [GRAPHIC] [TIFF OMITTED] T7431.014
    
    [GRAPHIC] [TIFF OMITTED] T7431.015
    
    [GRAPHIC] [TIFF OMITTED] T7431.016
    
    [GRAPHIC] [TIFF OMITTED] T7431.017
    
    [GRAPHIC] [TIFF OMITTED] T7431.018
    
    [GRAPHIC] [TIFF OMITTED] T7431.019
    
    [GRAPHIC] [TIFF OMITTED] T7431.020
    
    [GRAPHIC] [TIFF OMITTED] T7431.021
    
    [GRAPHIC] [TIFF OMITTED] T7431.029
    
    [GRAPHIC] [TIFF OMITTED] T7431.030
    
    [GRAPHIC] [TIFF OMITTED] T7431.031
    
    [GRAPHIC] [TIFF OMITTED] T7431.032
    
    [GRAPHIC] [TIFF OMITTED] T7431.033
    
    [GRAPHIC] [TIFF OMITTED] T7431.034
    
    [GRAPHIC] [TIFF OMITTED] T7431.022
    
    [GRAPHIC] [TIFF OMITTED] T7431.023
    
    [GRAPHIC] [TIFF OMITTED] T7431.024
    
    [GRAPHIC] [TIFF OMITTED] T7431.025
    
    [GRAPHIC] [TIFF OMITTED] T7431.026
    
    [GRAPHIC] [TIFF OMITTED] T7431.027
    
    [GRAPHIC] [TIFF OMITTED] T7431.028
    
    [GRAPHIC] [TIFF OMITTED] T7431.035
    
    [GRAPHIC] [TIFF OMITTED] T7431.036
    
    [GRAPHIC] [TIFF OMITTED] T7431.037
    
    [GRAPHIC] [TIFF OMITTED] T7431.038
                                 <all>

</pre></body></html>
